       UNITED STATES
       HOUSE OF REPRESENTATIVES
       AUDIT REPORT

      Audit of the Financial Statements
For the Fiscal Year Ended September 30, 2008
            Report No. 10-HOC-02
                March 30, 2010
                                    Table of Contents

Executive Summary ...........................................................................................5

Independent Auditor’s Report ..........................................................................9

Office of the Chief Administrative Officer
     Audit Report Response ........................................................................... 37

Fiscal Year 2008 Financial Statements ...........................................................45
      Consolidated Statement of Financial Position ..............................................................46
      Consolidated Statement of Operations .........................................................................47
      Consolidated Statement of Cash Flows ........................................................................48

Notes to the Financial Statements ..................................................................49

Supplemental Financial Schedules .................................................................63
      Consolidating Statement of Financial Position ............................................................66
      Consolidating Statement of Operations ........................................................................68
      Consolidating Statement of Cash Flows .......................................................................70
    This Page Intentionally Left Blank




4
Executive Summary




               5
6
Executive Summary




                                  EXECUTIVE SUMMARY

Results of Audit

During the past year, the House continued to make progress in improving its financial management and
operations. For the eleventh year, the independent auditors expressed an unqualified opinion on the
House’s financial statements and reported that the financial statements fairly present, in all material
respects, the financial position of the House and the results of its operations and cash flows in conformity
with generally accepted accounting principles. In addition, the Independent Auditors’ Report identified no
instances of noncompliance with laws and regulations.

In their report, the independent auditor’s identified three internal control weaknesses, all of which are
reportable conditions. The reportable conditions are associated with the internal control framework for the
payroll cycle, financial reporting process and financial information system.

During fiscal year 2008, the House implemented or initiated corrective actions to address the 45 prior audit
recommendations contained in last year’s report. Due to the House’s progress towards improving financial
related activities, we were able to close (i.e., fully implemented or otherwise resolved) 32 of the 45 prior
recommendations.

Recommendations

This report contains 21 recommendations consisting of 13 prior recommendations, for which corrective
actions are in varying stages of implementation, and 8 new recommendations.

Management Response

The CAO responded to the Independent Auditor’s Report on March 10, 2010. In the response, which is
included in its’ entirety within the Management Comments section of this report, the CAO concurred with
the reported internal control weaknesses and recommendations for corrective action.




                                                                                                        7
    This Page Intentionally Left Blank




8
Independent Auditors’ Report




                          9
Independent Auditor’s Report




                               This Page Intentionally Left Blank




   10
Independent Auditor’s Report




                                      INDEPENDENT AUDITORS’ REPORT


   To the Inspector General
   U.S. House of Representatives

   In accordance with auditing standards generally accepted (GAAS) in the United States of America and
   standards applicable to financial statement audits contained in Government Auditing Standards (GAS),
   issued by the Comptroller General of the United States, we have conducted audits of Fiscal Years (FYs)
   2008 and 2007 financial statements of the U.S. House of Representatives (House) and an examination of
   the effectiveness of the House’s internal control over financial reporting for the period ended September
   30, 2008, in accordance with attestation standards established by the American Institute of Certified
   Public Accountants (AICPA), GAS, and Standards for Internal Control in the Federal Government,
   issued by the Comptroller General of the United States. As a result of our audits and examinations, we
   determined that:

       x   The financial statements were presented fairly, in all material respects, in conformity with U.S.
           generally accepted accounting principles.

       x   The House had effective internal control over financial reporting (including safeguarding assets).

       x   There were no instances of reportable noncompliance with laws and regulations that we tested.

   The following sections discuss these conclusions in more detail; our audit objectives, scope, and
   methodology; other matters related to internal control; and management comments and our evaluation.
   Details of significant deficiencies noted during the FY 2008 audit are discussed in Appendix A.

   CONCLUSIONS

   Opinion on the Financial Statements

   The financial statements and accompanying notes present fairly, in all material respects, in conformity
   with U.S. generally accepted accounting principles, the Consolidated Statement of Financial Position as
   of September 30, 2008, and 2007, and the related Consolidated Statements of Operations and Cash Flows
   for the years then ended.

   Opinion on Internal Control

   The House maintained, in all material respects, effective internal control over financial reporting
   (including safeguarding assets) as of September 30, 2008, that provided reasonable assurance that
   misstatements or losses material in relation to the financial statements would be prevented or detected on
   a timely basis. Our opinion is based upon criteria contained in Standards for Internal Control in the
   Federal Government, issued by the Comptroller General of the United States.




                                                                                                                11
Independent Auditor’s Report

   Compliance with Laws and Regulations

   Our tests of House compliance with selected provisions of law and regulations disclosed no instances of
   noncompliance that would be reportable under U.S. Generally Accepted Government Auditing Standards
   (GAGAS). The objective of our audit was not, however, to provide an opinion on overall compliance with
   laws and regulations. Accordingly, we do not express such an opinion.

   OBJECTIVES, SCOPE, AND METHODOLOGY

   Management is responsible for:

   1. Preparing the financial statements in conformity with U.S. generally accepted accounting principles.

   2. Establishing, maintaining, and assessing internal control to provide reasonable assurance that the
      House maintained effective internal control over financial reporting based upon Standards for
      Internal Control in the Federal Government, issued by the Comptroller General of the United States.

   3. Complying with applicable laws and regulations.

   We are responsible for expressing an opinion on these financial statements based on our audits. We are
   required by GAAS and GAS to plan and perform our audits to obtain reasonable assurance about whether
   the consolidated financial statements are free of material misstatement. We believe that our audits provide
   a reasonable basis for our opinion.

   Further, we are responsible for expressing an opinion on the effectiveness of internal control and are
   required by AICPA attestation standards and GAS to conduct an examination, to include obtaining an
   understanding of internal control over financial reporting, testing and evaluating the design and operating
   effectiveness of internal control, and performing such other procedures as we considered necessary in the
   circumstances. We believe that our audit provides a reasonable basis for our opinion.

   As part of obtaining reasonable assurance about whether the financial statements were free of material
   misstatements, we performed tests of compliance with certain provisions of laws and regulations,
   noncompliance with which could have a direct and material effect on the determination of financial
   statement amounts.

   Finally, we performed limited procedures with respect to certain other information appearing in the
   September 30, 2008, and 2007, consolidated financial statements.

   To fulfill these responsibilities, we:

        x   Examined evidence supporting amounts and disclosures in the financial statements on a test basis.

        x   Assessed accounting principles used and significant estimates made by management.

        x   Evaluated overall financial statement presentation.

        x   Obtained an understanding of the entity and its operations, including its internal control related to
            financial reporting (including safeguarding assets) and compliance with laws and regulations
            (including execution of transactions in accordance with budget authority).

        x   Tested relevant internal controls over financial reporting and compliance and evaluated design
            and operating effectiveness of internal control.




   12
Independent Auditor’s Report

       x   Tested compliance with selected provisions of laws and regulations specific to the House, which
           are contained in the Members’ Congressional Handbook and Committees’ Congressional
           Handbook.

   We limited our internal control testing to controls over financial reporting and compliance. Because of
   inherent limitations in internal control, misstatements due to error or fraud, loss, or noncompliance may
   nevertheless occur and not be detected. We also caution that projecting our evaluation to future periods is
   subject to the risk that controls may become inadequate as the result of changes in conditions, or that the
   degree of compliance with controls may deteriorate.

   We did not test compliance with all laws and regulations applicable to the House. We limited our tests of
   compliance to those laws and regulations required by Office of Management and Budget (OMB) audit
   guidance we deemed applicable to the financial statements for the fiscal years ended September 30, 2008,
   and 2007. We caution that noncompliance may occur and not be detected by these tests, and that such
   testing may not be sufficient for other purposes.

   For the information technology (IT) portion of the audit, we reviewed physical, logical, and management
   controls over the Chief Administrative Office (CAO) information systems that process and report
   information on the annual financial statements. We reviewed controls used to secure and safeguard
   financial information traveling over the CAO network and residing on House financial systems. Our audit
   was limited to the CAO portion of the House network (general support system) and related financial
   information systems.

   We relied upon government best practices developed by the National Institute of Standards and
   Technology (NIST) for review criteria. NIST was mandated by OMB to develop IT audit tests, standards,
   and procedures to protect sensitive information from unauthorized access or modification for the federal
   government.

   NIST guidance is accepted as industry best practice for establishing standards and procedures for securing
   information technology systems and protecting the integrity, confidentiality, reliability, and availability of
   information. NIST security guidance focus areas include cryptographic technology and applications,
   advanced authentication, public key infrastructure, internet-working security, criteria and assurance, and
   security management and support.

   Our review included an examination of internal controls over IT for the general support system and
   individual financial applications using the Federal Information System Controls Audit Manual
   (FISCAM), an accepted IT audit methodology developed by GAO. We examined controls in the
   following six areas:

       x   Entity-wide security program planning and management controls to provide a framework
           and continuing cycle of activity for managing risk, developing security policies, assigning
           responsibilities, and monitoring the adequacy of computer-related controls.

       x   Access controls to limit or detect access to computer resources (data, program, equipment, and
           facilities), thereby protecting these resources against unauthorized modification, loss, and
           disclosure.

       x   System software controls to limit and monitor access to powerful programs and sensitive files
           that control computer hardware and secure applications supported by the system.




                                                                                                                    13
Independent Auditor’s Report

        x   Service continuity controls to ensure that when unexpected events occur, critical operations
            continue without interruption or are promptly resumed and critical and sensitive data are
            protected from destruction.

        x   Application software development and program change controls to prevent implementation
            of unauthorized programs or modifications to existing programs.

        x   Segregation-of-duty controls to provide policies, procedures, and organizational structure to
            prevent one individual from controlling key aspects of computer-related operations and thereby
            conducting unauthorized actions or gaining unauthorized access to assets or records. These
            controls must be applied within an application and at the mainframe and network system level.

   System audits are conducted on a multi-year rotational basis. Each year, we conduct a full review of one
   or more systems to ensure that all system controls are adequately assessed during the audit cycle. The FY
   2008 audit included a systems internal control review of the Member Payroll Application, FFS user
   control considerations, and review of prior-year findings and recommendations to determine if
   management had taken action to correct identified weaknesses.

   OTHER MATTERS RELATED TO INTERNAL CONTROL

   In performing our examination of the effectiveness of internal control over financial reporting of the
   House as of September 30, 2008, we identified certain deficiencies in internal control that we consider
   significant deficiencies under standards established by AICPA.

   A control deficiency exists when the design or operation of a control does not allow management or
   employees, in the normal course of performing their assigned functions, to prevent or detect
   misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
   control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
   report financial data reliably in accordance with generally accepted accounting principles such that there
   is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
   inconsequential will not be prevented or detected by the entity’s internal control.

   A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
   more than a remote likelihood that a material misstatement of the financial statements will not be
   prevented or detected by the entity’s internal control.

   We identified no deficiencies in internal control that we consider to be material weaknesses, as defined
   above. We did, however, identify deficiencies in internal control that we consider to be significant
   deficiencies in internal control. We describe these deficiencies in detail in Appendix A to this report.




   14
Independent Auditor’s Report

   AGENCY COMMENTS AND OUR EVALUATION

   In commenting on a draft of this report, the House concurred with the facts and conclusions in our report.
   Management comments are in Appendix B.


   COTTON & COMPANY LLP




   Matthew H. Johnson, CPA, CISA
   Partner


   January 8, 2010
   Alexandria, Virginia




                                                                                                                15
Independent Auditor’s Report




                                          APPENDIX A
                     COMMUNICATION OF SIGNIFICANT DEFICIENCIES NOTED DURING
                              FY 2008 FINANCIAL STATEMENT AUDIT




   16
Independent Auditor’s Report

                                           APPENDIX A
                      COMMUNICATION OF SIGNIFICANT DEFICIENCIES NOTED DURING
                               FY 2008 FINANCIAL STATEMENT AUDIT

   In performing our examination of the effectiveness of internal control over financial reporting of the
   House as of September 30, 2008, we identified certain deficiencies in internal control that we consider
   significant deficiencies under standards established by AICPA, as follows:

       1. Weaknesses in the processing and reporting of payroll data are exacerbated by deficiencies within
          the House’s control environment.

       2. Weaknesses existed in procedures used to ensure the completeness and accuracy of estimates,
          accruals, and other adjustments included in yearend financial statements.

       3. Weaknesses in the financial information system reduced the integrity of financial data and
          reporting.

   Our criteria for assessing control weaknesses are provided below along with a summary status of control
   weaknesses and detailed descriptions of these weaknesses.

   CRITERIA

   In determining the status of control weaknesses, we applied the following criteria:

   New Condition               Newly identified weakness.
   Open (Prior Year)           The House did not fully implement recommended corrective actions, or changes
                               in House operations have not remedied or eliminated the need for recommended
                               corrective action.
   Closed (Prior Year)         The House fully implemented recommended corrective actions, or changes in
                               House operations remedied or eliminated the need for recommended corrective
                               action.

   SUMMARY STATUS OF INTERNAL CONTROL WEAKNESSES

   None of the internal control weaknesses we identified is a new condition. All were reported in prior audit
   reports and remain open. The following matrix provides a summary of existing internal control
   weaknesses:

                                                                    Status as of March 13, 2009
      Weakness                                                   New Condition Open        Closed
      1. Weaknesses in the processing and reporting of payroll
         data are exacerbated by deficiencies within the House’s                  3
         control environment. (Significant Deficiency)
      2. Weaknesses existed in procedures used to ensure the
         completeness and accuracy of estimates, accruals, and                    3
         other adjustments included in yearend financial
         statements. (Significant Deficiency)
      3. Weaknesses in the financial information system
         reduced the integrity of financial data and reporting.                   3
         (Significant Deficiency)




                                                                                                                17
Independent Auditor’s Report

   DISCUSSION OF INTERNAL CONTROL WEAKNESSES

   Weakness 1:                 Weaknesses in the processing and reporting of payroll data are exacerbated
                               by deficiencies within the House’s control environment.

   Summary Status:             Significant Deficiency
                               Prior Condition
                               Open

   We identified several instances in which the House’s system of internal control over payroll processing
   did not ensure accurate reporting of transactions and balances. Controls were inadequate in some cases
   and, although they existed in other cases, they were not always adhered to because of weaknesses within
   the control environment.

   We made inquiries and observed controls in place to determine if policies and procedures were
   adequately documented and implemented. We tested controls over the processing and reporting of payroll
   data, which included processing Payroll Authorization Forms (PAFs). We performed substantive tests of
   details to validate changes made in the payroll system through the pre-certification and final certification
   processes, and we performed tests of details related to the disbursement and reporting of payroll and the
   reconciliation of payroll data.

   Internal control procedures to ensure completeness and accuracy of payroll transactions included in the
   financial statements were not effective or did not exist in all cases. We identified three instances,
   discussed below, in which payroll controls did not operate in an effective manner.

   OMB Circular A-123, Management’s Responsibility for Internal Control, states:

        Management is responsible for developing and maintaining effective internal control. Effective
        internal control provides assurance that significant weaknesses in the design or operation of
        internal control, that could adversely affect the agency’s ability to meet its objectives, would be
        prevented or detected in a timely manner.

        a. Existing controls did not prevent payroll disbursement exceeding the House Speakers Pay
           Order Limit.

   One employee was overpaid by $14,016 as the result of a data entry error that established the employee’s
   hourly pay rate as $500. This amount exceeded the House Speakers Pay Order limit. A key control
   designed to detect this type of error is the monthly payroll validation process. This process requires the
   employing office to validate the pay amount before a disbursement is made, and, as discussed below,
   employing offices did not always adhere to this control.

   A second key control that should detect this type of error is the Over Speakers Pay Edit Report, which
   identifies an amount exceeding the Speakers Pay Order limit prior to payment. Although detection
   controls exist, CAO personnel must review disbursement amounts that exceed the Speakers Pay Order
   limit and take corrective actions to avoid these types of erroneous payments.

        b. The House did not properly implement procedures for ensuring completeness and accuracy
           of financial transactions.

   Amounts disbursed to Office of Personnel Management (OPM) by the House for personnel benefits on
   behalf of employees did not agree to total payroll deductions. The Office of Payroll and Benefits did not
   perform a Gross to Net Payroll Reconciliation to ensure that receipt and disbursement transactions were




   18
Independent Auditor’s Report

 properly recorded in the correct accounts. Based on our FY 2008 testing of financial transactions and the
 related effectiveness of yearend reporting controls, we identified $106,562 in net payroll receipt and
 disbursement amounts not recorded in the Federal Financial System (FFS).

     c. The House did not maintain sufficient documentation to support payroll transactions.

 All PAFs were not scanned into the ImageNow system upon receipt of a change request to support bonus
 payments, terminations, and personnel elections. We could not obtain support for the following:

     x    Salary adjustments for two employees
     x    Leave without pay status for one employee
     x    Termination for one employee
     x    Thrift Savings Plan election for two employees
     x    Federal Employees’ Group Life Insurance election for one employee

 Without such documentation, the House cannot ensure that employee salaries and deductions are correct.

     d. The control environment weaknesses did not ensure adherence to procedures.

 In addition to the specific weaknesses discussed above, the control environment has contributed to errors
 in the processing of transactions for payroll and related benefits, thus impeding the House’s ability to
 ensure that all employing offices adhered to controls designed to ensure accurate transactions. During the
 FY 2008 audit, we performed sample control tests on files of terminated employees, interns and
 temporary employees, and individuals who received lump-sum bonus payments.

 We identified exceptions related to late or missing PAF documentation in each control sample test
 population. We identified two instances in which a total of $13,068 was paid to terminated employees.
 Out of a sample of 47 intern and temporary employees, 42 individuals had exceeded the specified
 allowable time limit for employment. Finally, one individual received a bonus payment two months after
 it should have been paid.

 Employing offices did not always adhere to two key controls that affected payroll and related benefit
 processing.

     x    Employing offices did not always submit and/or process PAFs in a timely manner. If a PAF is
          submitted late or never submitted, the House payroll office will continue to process an
          individual’s payroll until an employing office submits a PAF advising the CAO’s office that the
          employee is no longer employed by the House.

     x    Employing offices did not always perform payroll validations to ensure accuracy and
          completeness for payroll and related benefit payments. The validation process requires each
          employing office to validate payroll payments that CAO will make on its behalf prior to payment
          processing. Because this validation process does not always occur, payment errors are not
          identified. In the example cited above, payroll validation would have provided a mechanism for
          the employing office to identify and prevent payment to a terminated employee.

 In addition, because an established management control plan is not in place, the weaknesses discussed
 above may be undetected and uncorrected. A management control plan, such as those directed by OMB
 Circular A-123, provides a mechanism for management to identify, report, and correct control
 deficiencies in a timely manner.




                                                                                                              19
Independent Auditor’s Report

   Recommendations

   We recommend that CAO:

        1.a.   Ensure existing controls for the payroll validation and the amounts exceeding the Speaker Pay
               Order limit check are sufficient to prevent data entry errors. We also recommend that CAO
               consider implementing edit checks within the payroll system or implement other compensating
               controls to ensure that hourly rates do not result in an annual salary exceeding the Speaker Pay
               Order limit.

        1.b. Develop procedures to reconcile payroll deduction receipt and disbursement amounts on a
             monthly basis as part of payroll processing. Additionally, we recommend that CAO properly
             recognize and record payroll transactions in FFS.

        1.c.   Strengthen controls of the Image Now system to support payroll transactions recorded in
               Lawson.

        1.d. In coordination with the OIG and Committee on House Administration (CHA), identify offices
             that do not comply with requirements for timely Payroll Authorization Form (PAF) submission
             or submission of payroll certification reports, provide assistance, and reinforce the need for
             compliance with these controls.

        1.e.   Establish a management control program to ensure that internal controls over financial
               reporting for the House of Representatives are designed, implemented, and operating
               effectively using guidance contained in OMB Circular A-123, Appendix A.




   20
Independent Auditor’s Report

   Weakness 2:                 Weaknesses existed in procedures used to ensure the completeness and
                               accuracy of estimates, accruals, and other adjustments included in yearend
                               financial statements.

   Summary Status:             Significant Deficiency
                               Prior Condition
                               Open

   Weaknesses in procedures used to ensure the completeness and accuracy of estimates, accruals, and other
   adjustments included in yearend financial statements adversely affected the House’s ability to initiate,
   authorize, record, process, or report financial data reliably in accordance with generally accepted
   accounting principles.

   OMB Circular A-123 states:

       Internal control over financial reporting is a process designed to provide reasonable assurance
       regarding the reliability of financial reporting. Reliability of financial reporting means that
       management can reasonably make the following assertions:

       1. All reported transactions actually occurred during the reporting period and all assets and
          liabilities exist as of the reporting date (existence and occurrence);

       2. All assets, liabilities, and transactions that should be reported have been included and no
          unauthorized transactions or balances are included (completeness);

       3. All assets are legally owned by the agency and all liabilities are legal obligations of the
          agency (rights and obligations);

       4. All assets and liabilities have been properly valued, and where applicable, all costs have
          been properly allocated (valuation);

       5. The financial report is presented in the proper form and any required disclosures are present
          (presentation and disclosure);

       6. The transactions are in compliance with applicable laws and regulations (compliance);

       7. All assets have been safeguarded against fraud and abuse; and

       8. Documentation for internal control, all transactions, and other significant events is readily
          available for examination.

   We identified weaknesses in two of the eight assertions identified above (Nos. 1 and 5). Our findings and
   associated recommendation for corrective action are below.

   We identified two specific areas that did not meet criteria in Assertion No. 1:

       a. The methodology used to identify duplicate payments was ineffective.

           The Office of Financial Solutions, Financial Counseling (FC), methodology for identifying
           duplicate payments did not allow for recognition of potential duplicate payments due to
           insufficient search criteria. The methodology used to identify duplicate payments included
           established criteria (e.g. same organization, vendor code, amount, and beginning date of service),



                                                                                                                21
Independent Auditor’s Report

               but combined these criteria into one search. By not dividing the criteria among multiple smaller
               searches, FC was unable to identify potential duplicate payments that met some but not all of the
               criteria, such as payments with the same amount and vendor code but different invoice dates.

        b. The House did not maintain adequate inventory records of property.

               Inventory records of property items were not accurately tracked in FAIMS. We initially sampled
               45 items; of these, 18 were within the Office of the Clerk. Office of the Clerk personnel were
               unable to locate 7 of the items in a timely manner. As a result, we expanded testing and identified
               one item that the Office of the Clerk could not verify. Also, House Information Resources (HIR)
               personnel stated that an asset within FAIMS had been retired, but HIR could not provide the
               proper disposal paperwork.

               House personnel did not always follow annual physical inventory policies and procedures and did
               not ensure accurate recording and updating of records in FAIMS. Inaccurate property records
               increases the risk of misappropriation of property items. Assets that have been retired but have
               not been removed from FAIMS result in an overstatement of the financial statements and notes in
               reporting the estimated acquisition value and accumulated amortization/depreciation of assets.

   We identified one instance that did not meet criteria in Assertion No. 5:

        c. Inaccuracies in the Statement of Cash Flows

               Controls and procedures to ensure the accuracy of capital lease transactions recorded in the
               Statement of Cash Flows by the Office of Financial Solutions (OFS) were insufficient. The
               principal payment on capital lease liabilities for Asset No.284207 was misstated as $523,701,
               rather than the correct $539,701. This resulted in a $16,000 understated principal Payment on
               Capital Lease Liabilities reported on the Statement of Cash Flows. While this is an immaterial
               amount, the lack of adequate controls over the recording of lease payments could potentially
               result in a material misstatement on the Statement of Cash Flows.

   Recommendations

   We recommend that CAO:

        2.a.     Revise the methodology for identifying duplicate payments to include using multiple selection
                 criteria to identify potential duplicates. If the current duplicate payment software is not
                 adequate, we recommend that CAO consider alternative commercial programs or develop an
                 in-house program to perform the duplicate payment function. Additionally, we recommend that
                 CAO develop and implement systematic preventive controls within Atlas to identify and
                 prevent duplicate payments.

        2.b. Ensure that the House complies with its annual inventory procedures. We also recommend the
             CAO request Accountable Equipment and Assets (AEA), HIR, and Office of the Clerk
             receiving departments to review and strengthen policies for ensuring accurate record updates to
             FAIMS.

        2.c.     Require the Office of Financial Solutions to review the process of recording cash flows and
                 develop appropriate policies and procedures to ensure accurate recording.




   22
Independent Auditor’s Report


   Weakness 3:                 Weaknesses in the financial information system reduced the integrity of
                               financial data and reporting.

   Summary Status:             Significant Deficiency
                               Prior Condition
                               Open

   Although CAO made progress in addressing prior-year weaknesses, we noted that nine of 31 prior-year
   recommendations remained open. The remaining 22 prior-year weaknesses were closed when changes in
   House operations remedied the associated underlying weaknesses. The status of new and open
   recommendations is detailed in Summary of Recommendations, Weakness 4. Closed recommendations
   follow that section.

   Our audit identified four new weaknesses in two FISCAM control areas:

       x   Entity-Wide Security Program Planning and Management
       x   Access Controls

   Although none of the new or existing weaknesses discussed in this report by itself represents a reportable
   condition, they collectively comprise a reportable condition.

   Entity-Wide Security Program Planning and Management

   We identified weaknesses related to entity-wide security program planning and management in the
   following two areas:

       x   Federal Financial System (FFS) Statement on Auditing Standard (SAS) 70 and Interconnection
           Security Agreement with Department of the Interior’s National Business Center (NBC)

       x   Certification and Accreditation (C&A) of General Support Systems

       a. Federal Financial System SAS 70 and Interconnection Security Agreement with NBC

   Controls are not adequate to ensure that CAO obtained assurance of the effectiveness of user controls
   protecting FFS data by conducting annual reviews of user controls documented within the SAS 70 report
   for FFS and the Interconnection Security Agreement with NBC.

   Operation and Testing of Operating Effectiveness (SAS 70) for the period July 1, 2007, through June 30,
   2008, states:

       User Control Considerations section
       The Federal Financial System (FFS) mainframe general information technology and account
       operation controls at NBC were designed with the assumption that certain controls would be
       implemented by user organizations. The application of such controls by user organizations is
       necessary to achieve certain control objectives. In order for the user organization to rely on
       internal controls reported herein (within the SAS 70 report), the user organizations must evaluate
       their own system of internal controls to determine if the following items, at a minimum are in
       place…:
           Controls to provide reasonable assurance that logical access to NBC’s mainframe at client
           locations is restricted to authorized individuals.




                                                                                                                23
Independent Auditor’s Report

   Interconnection Security Agreement (ISA) and Memorandum of Understanding (MOU) between the
   House and NBC, April 2008, Section 2.11, Audit Trail Responsibilities states:

        Both Agencies are responsible for auditing activities involving the interconnection. Activities that
        will be recorded include event type, date and time of event, user identification, workstation,
        success or failure of access attempts, and security actions taken by system administrators or
        security officers. Audit trails will be retained for one year. USHR [House] will conduct annual
        reviews in conjunction with the NBC security staff.

   Further, Section 6, Software, of the above document states:

        The CISCO IOS levels will be maintained and kept current (current maintained production
        release identified by the hardware vendor). Patches will be applied for the IOS for the hardware,
        as vulnerabilities and fixes are made available and commensurate with the risk associated with
        the vulnerability.

   Finally, Section 8, Security, states:

        Interconnecting systems shall have undergone a C&A process with associated memorandums that
        designate the systems are fully accredited.

   We identified weaknesses in the following CAO user-control considerations:

        x   Controls were not adequate to ensure that logical access to the NBC Mainframe was restricted to
            authorized individuals. During a review of FFS Security Application Forms for a selection of 45
            FFS users, we identified the following:

            o   7 accounts did not have approval forms.
            o   3 accounts were approved for a profile not consistent with the current assigned profile.
            o   3 accounts did not include a specific profile name on the approval form, but did include
                permission descriptions.
            o   3 accounts did not include profile documentation, but included notes to see an attachment,
                which was not provided.
            o   1 account did not include profile documentation, and no other reference was made.

   Subsequent to the end of the audit fieldwork period, management provided additional documentation and
   explanations related to the noted exceptions. We will conduct follow-up testing in this area during the FY
   2010 audit cycle.

        x   Controls were not adequate to ensure that interconnecting systems have undergone a C&A
            process with associated memorandums that designate the systems as fully accredited.
            Specifically, the Procurement Desktop system (PD) has an interconnection with FSS, but it had
            not completed the C&A process and is not fully accredited.

        x   Controls are not adequate to ensure that activities involved in the interconnection between the
            House and NBC were audited and audit logs were maintained and reviewed annually in
            conjunction with NBC security. We observed audit logs produced for events on the router that
            controls the connection between the House and NBC. Logs for events, such as configuration
            changes and failed login attempts, were being recorded. However, no evidence of review by
            either House or NBC management was available.




   24
Independent Auditor’s Report

  Access Controls

  Access controls over CAO major applications and the general support system were inadequate.
  We identified weaknesses related to access controls in the following two areas:

        x   Controls over Procurement Desktop Database Configurations
        x   Segregation of Member Payroll User Roles and Functions

        c. Controls over Procurement Desktop Database Configurations

  Controls are not adequate to ensure that standard security configuration baselines are implemented for the
  PD database. Specifically, CAO has not configured and audited the PD database to ensure that HISPUB
  (security checklist) requirements are met.

  HISPOL 007.0 - The United States House of Representatives Information Security Policy for the
  Information Security Compliance Program, Section 2, Policy Guidelines, states:

        Compliance reviews of major and support applications and devices will be conducted at least
        once every two (2) years, or when a significant change occurs, to ensure an appropriate level of
        security is maintained.

        Security requirements and controls shall be identified and documented in the appropriate security
        compliance checklist(s).

  Further, Section 3.2, Responsible House Offices and Personnel, states:

        House Offices are responsible for the overall procurement, development, integration,
        modification, operation, maintenance, and oversight of an information system. The responsible
        personnel will: Ensure the appropriate security compliance checklists are applied and
        maintained

  Without adequately applied security settings, management cannot ensure that controls are adequately
  mitigating identified risks to financial transactions and data processed and stored within the Procurement
  Desktop database.

        d. Segregation of Member Payroll User Roles and Functions

  CAO did not ensure that incompatible Member payroll job functions were adequately segregated. In
  addition, CAO did not develop compensating controls, such as logging and monitoring, to ensure that
  unauthorized and malicious activities performed using incompatible Member payroll functions were
  identified and investigated.

  The House did not adequately identify incompatible Member payroll job functions, and it did not have
  compensating controls, such as logging and monitoring, to ensure that it could identify and investigate
  any unauthorized and malicious activities performed in Member Payroll.

  During our review of Member Payroll roles we determined that all seven Member Payroll users have
  access which would allow them the capability to make changes or alter sensitive Member Payroll data.
  Three of these users are not everyday users of the Members Payroll application.

  Due to the sensitive nature of Member Payroll data there is an increased risk that unauthorized activities
  may occur. The CAO has not developed compensating controls, such as logging and monitoring, to



   26
Independent Auditor’s Report

   identify potential unauthorized user activities which could affect the confidentiality, integrity, and
   availability of sensitive Member Payroll data.

   NIST SP 800-53a, Guide for Assessing Security Controls in Federal Information Systems, June 2008,
   Section AC-5, Separation of Duties, states:

        Control: The information system enforces separation of duties through assigned access
        authorizations.

        Supplemental Guidance: The organization establishes appropriate divisions of responsibility and
        separates duties as needed to eliminate conflicts of interest in the responsibilities and duties of
        individuals. There is access control software on the information system that prevents users from
        having all of the necessary authority or information access to perform fraudulent activity without
        collusion.

   Section AC-6, Least Privilege, states:

        Control: The information system enforces the most restrictive set of rights/privileges or accesses
        needed by users (or processes acting on behalf of users) for the performance of specified tasks.

        Supplemental Guidance: The organization employs the concept of least privilege for specific
        duties and information systems in accordance with risk assessments as necessary to adequately
        mitigate risk to organizational operations, organizational assets, and individuals.

   Section AC-13, Supervision and Review – Access Control, states:

        Control: The organization supervises and reviews the activities of users with respect to the
        enforcement and usage of information system access controls.

        Supplemental Guidance: The organization reviews audit records (e.g., user activity logs) for
        inappropriate activities in accordance with organizational procedures. The organization
        investigates any unusual information system-related activities and periodically reviews changes
        to access authorizations. The organization reviews more frequently the activities of users with
        significant information system roles and responsibilities.

   Section AU-10, Non-Repudiation, states:

        Control: The information system provides the capability to determine whether a given individual
        took a particular action.

        Supplemental Guidance: Non-repudiation protects against later false claims by an individual of
        not having taken a specific action. Non-repudiation services can be used to determine if
        information originated from an individual, or if an individual took specific actions.

   Without enforcement of least privilege, or adequate compensating controls, such as logging and
   monitoring of user activities, management cannot ensure that users are not performing unauthorized or
   malicious activities that can affect the confidentiality, availability, and integrity of sensitive Member
   Payroll data.




                                                                                                               27
Independent Auditor’s Report

   Recommendations

   We recommend that CAO:

        3.a.   Perform certification testing to ensure that NBC FFS user controls are in place and working
               effectively. This includes any controls documented within the SAS 70 user control
               considerations and the Interconnection Security Agreement with NBC.

        3.b. Complete their effort to certify and accredit (Perform HISPOL 007.0 Compliance Review), the
             primary general support system supporting CAO financial applications.

        3.c.   Ensure the Procurement Desktop Oracle database is configured to meet Oracle database audit
               checklist (HISPUB) requirements.

        3.d. Update Member Payroll application user roles to enforce the rule of least privilege; or develop
             and implement compensating controls, such as logging or monitoring, to ensure users are only
             performing authorized activities.




   28
Independent Auditor’s Report

   SUMMARY OF RECOMMENDATIONS

   The tables below show our recommendations and management’s response to those recommendations.
   Additionally, we have attached to this report management’s response in its entirety. In general,
   management concurred with our findings and recommendations.

   Weakness 1:       Weaknesses in the processing and reporting of payroll data are exacerbated by
                     deficiencies within the House’s control environment.

           Recommendation               Status                           Management Response
   1.a.
   We recommend that CAO                Open     CONCUR.
   ensure existing controls for the
   payroll validation and the                    The overpayment referenced by the external auditors was an isolated
   amounts exceeding the Speaker                 event and the CAO collected the overpayment. The overpayment was
   Pay Order limit check are                     caused by uploading transaction batches into the payroll system which
   sufficient to prevent data entry              bypasses the warning message to the data entry personnel that the
   errors. We also recommend that                transaction exceeded Speaker’s Pay Order Limits. The CAO has
   CAO consider implementing                     discontinued this practice and has implemented a source document to
   edit checks within the payroll                draft payroll register validation during the pay cycle, in addition to the
   system or implement other                     current Speaker’s Pay Order edit report. Additionally, operating
   compensating controls to ensure               procedures include checking overtime transactions prior to entry to
   that hourly rates do not result in            ensure that they do not exceed Speaker’s Pay Order limits. Additional
   an annual salary exceeding the                edits cannot be added to the payroll system without customizing the
   Speaker Pay Order limit.                      application source code. The cost of such customization would
                                                 outweigh the benefits achieved as the edit would be used to detect a
                                                 single error. The CAO has completed corrective action on this
                                                 recommendation and requests closure.
   1.b.
   We recommend that CAO                Open     CONCUR.
   develop procedures to reconcile
   payroll deduction receipt and                 The Office of Payroll and Benefits (P&B) has developed procedures to
   disbursement amounts on a                     reconcile optional life insurance, basic life insurance, health insurance,
   monthly basis as part of payroll              and flexible spending account deductions and disbursements. P&B
   processing. Additionally, we                  also validates Federal and State tax withholding elections and FICA
   recommend that CAO properly                   and Medicare taxable gross and deductions on the employee level.
   recognize and record payroll                  Accounting performs validations of Federal, FICA and Medicare
   transactions in FFS.                          taxable wages and withholdings for deposit and 941 reporting, State tax
                                                 and TSP deductions and disbursements. P&B has also implemented
                                                 additional cash balancing procedures to ensure the net pay reconciles to
                                                 the amount disbursed through the Federal Reserve.
   1.c.
   We recommend that CAO                Open     CONCUR.
   strengthen controls of the Image
   Now system to support payroll                 The CAO has implemented additional quality assurance steps to ensure
   transactions recorded in                      that payroll and benefit transactions are archived in the ImageNow. In
   Lawson.                                       July, 2009, the Payroll Operations team began auditing a random
                                                 sample of 135 transactions each pay period to ensure that the actions
                                                 are recorded in ImageNow. The CAO recently completed an
                                                 automated audit between the ImageNow and Lawson systems
                                                 validating the indexing of approximately 3.5 million documents. The
                                                 CAO will conduct this audit on a semi-annual basis. The CAO has
                                                 completed corrective action on this recommendation and request
                                                 closure.
   1.d.
   We recommend that CAO, in            New      CONCUR.
   coordination with the OIG and



                                                                                                                              29
Independent Auditor’s Report

          Recommendation               Status                            Management Response
   Committee on House                           The CAO concurs with this recommendation and will coordinate with
   Administration (CHA), identify               the Office of the Inspector General and the committee on House
   offices that do not comply with              Administration. The CAO does not have the authority to enforce
   requirements for timely Payroll              timely submissions of PAF’s or payroll certification reports. The CAO
   Authorization Form (PAF)                     currently communicates monthly submission deadlines in each monthly
   submission or submission of                  payroll and benefits newsletter, sends notices to offices that do not
   payroll certification reports,               return payroll certification reports in a timely manner, and has
   provide assistance, and                      encourages adherence to deadlines. The CAO will institute a monthly
   reinforce the need for                       notification to identify employing offices that do not return payroll
   compliance with these controls.              certifications.
   1. e.
   We recommend that CAO               New      CONCUR.
   establish a management control
   program to ensure that internal               The CAO concurs with this recommendation. The CAO is actively
   controls over financial reporting            recruiting for an audit and internal controls manager. Upon
   for the House of                             successfully filling this vacancy, the CAO plans to begin developing a
   Representatives are designed,                centralized management control program. This management control
   implemented, and operating                   program will be limited to only those activities which the CAO has
   effectively using guidance                   policy enforcement authority.
   contained in OMB Circular A-
   123, Appendix A.




   30
Independent Auditor’s Report

   Weakness 2:      Weaknesses existed in procedures used to ensure the completeness and accuracy of
                    estimates, accruals, and other adjustments included in yearend financial statements.

          Recommendation              Status                           Management Response
   2.a
   We recommend that CAO              Open     CONCUR.
   revise the methodology for
   identifying duplicate payments              The CAO has already revised its methodology for identifying duplicate
   to include using multiple                   payments to include four unique selection criteria sets that use multiple
   selection criteria to identify              attributes to divide the criteria into smaller search groups. As a result,
   potential duplicates. If the                more potential duplicates can be identified. These four criteria sets are
   current duplicate payment                   applied simultaneously monthly to a single cumulative financial
   software is not adequate, we                activity data base, and potential duplicates are researched and
   recommend that CAO consider                 corrective action taken, if necessary. Currently, the CAO has
   alternative commercial                      incorporated this search into a commercial off-the-shelf program but
   programs or develop an in-                  will transition this capability to an in-house program in the coming
   house program to perform the                months. In addition, the House’s new financial system, ATLAS, will
   duplicate payment function.                 have the capability to identify potential duplicate payments at the point
   Additionally, we recommend                  of entry. This function will be used in addition to the monthly data
   that CAO develop and                        loads documented above, thus strengthening internal controls by giving
   implement systematic                        the House capability to identify potential duplicate payments both
   preventive controls within Atlas            before and after payments have been processed. The CAO believes we
   to identify and prevent                     have taken the appropriate action to close this recommendation.
   duplicate payments.
   2.b.
   We recommend that CAO              New      CONCUR.
   ensure that the House complies
   with its annual inventory                   The CAO concurs with this recommendation. The Accountable
   procedures. We also                         Equipment and Assets and HIR will comply with the annual inventory
   recommend the CAO request                   procedures currently in effect. In addition, after reviewing specific
   Accountable Equipment and                   weaknesses, the Accountable Equipment and Assets (AEA) and HIR
   Assets (AEA), HIR, and Office               receiving departments will review and strengthen policies for ensuring
   of the Clerk receiving                      accurate record updating to FAIMS. The CAO has no authority over
   departments to review and                   the receiving department for the Office of the Clerk; but will offer
   strengthen policies for ensuring            guidance for the review of their inventory and receiving policies. The
   accurate record updates to                  CAO expects to complete this review by December 31, 2009
   FAIMS.
   2.c.
   We recommend that CAO              New      CONCUR.
   require the Office of Financial
   Solutions to review the process             The CAO will continue to track lease payments and the associated
   of recording cash flows and                 reduction of the capital lease liabilities according to amortization
   develop appropriate policies                schedules consistent with the terms of the lease. The Consolidated
   and procedures to ensure                    Statement of Cash Flows will be eliminated beginning with the Fiscal
   accurate recording.                         Year 2009 Financial Statement Compilation and subsequent years
                                               thereafter as the House transitions to preparing financial statements in
                                               compliance with Office of Management and Budget (OMB) Circular
                                               A-136 guidelines. Future capital lease commitments including both
                                               imputed interest and net capital lease liability were disclosed correctly
                                               in Note 8 of the Fiscal Year 2008 Financial Statements. This
                                               recommendation was based on an inadvertent error where annual
                                               principal payments on capital leases were summarized and presented
                                               incorrectly as a single amount on cash flow statements, and that
                                               amount did not match the amortization schedules; however, the
                                               amortization schedules were correct. Based on cash flow statements
                                               being eliminated in the future, the CAO believes we have taken the
                                               appropriate action to close this recommendation.




                                                                                                                            31
Independent Auditor’s Report

    Weakness 3: Weaknesses in the financial information system reduced the integrity of financial
                data and reporting.

    Entity-Wide Security Program Planning and Management

                    Recommendation                     Status                  Management Response
   3.a.
   We recommend that CAO management perform            New      CONCUR.
   certification testing to ensure that NBC FFS user
   controls are in place and working effectively.               We agree that effective user controls over access to
   This includes any controls documented within                 FFS are required under our agreement with the NBC.
   the SAS 70 user control considerations and the               We will continue to execute the controls over user
   Interconnection Security Agreement with NBC.                 access that are working effectively. We will also
                                                                review the NBC agreements to improve our
                                                                compliance with required controls that are not effective
                                                                or not clearly documented.
   3.b.
   We recommend that CAO management                    New      CONCUR.
   complete their effort to certify and accredit
   (Perform HISPOL 007.0 Compliance Review),                    The CAO concurs that the effort to certify and accredit
   the primary general support system supporting                all general support systems needs to be completed.
   CAO financial applications.                                  The CAO is working on the certification of the House
                                                                network and is schedule to have it completed by
                                                                October 31, 2009. The CAO believes no further action
                                                                is necessary on this portion of the recommendation.
   04-HOC-07, 2.02
   Develop, document, and put in place procedures      Open     The CAO believes appropriate action has been taken to
   to ensure compliance with HISPOL 003.0.                      close this recommendation. This recommendation will
   These procedures should include risk                         be reviewed and considered for closure during the next
   assessments performed at all levels (application,            audit cycle.
   database, and server) before new systems are
   installed and when enhancements are made to
   existing systems. In addition, this would include
   developing a schedule of risk assessments for
   existing and new financial systems and
   developing procedures to identify, implement,
   and track corrective actions designed to resolve
   weaknesses identified in the risk assessment.
   07-HOC-08, 1.01
   Develop, document, and put in place, a process      Open     The CAO believes appropriate action has been taken to
   for testing security controls identified as                  close this recommendation. This recommendation will
   corrected, to ensure actions taken adequately                be reviewed and considered for closure during the next
   mitigate or correct identified weaknesses.                   audit cycle.

   04-HOC-07, 2.03
                                                                The CAO believes appropriate action has been taken to
   Develop procedures to ensure that system-           Open
                                                                close this recommendation. This recommendation will
   specific security plans are developed and
                                                                be reviewed and considered for closure during the next
   updated as needed to reflect changes to software,
                                                                audit cycle.
   hardware, and business operations.




   32
Independent Auditor’s Report

   Service Continuity

                    Recommendation                    Status                  Management Response
   02-HOC-06, 4.05
   Coordinate contingency planning and recovery       Open     The CAO believes appropriate action has been taken to
   policies and procedures to ensure a                         close this recommendation. This recommendation will
   comprehensive approach that includes the                    be reviewed and considered for closure during the next
   network, mainframe computer, FFS, PD, and                   audit cycle.
   all critical financial systems.

   Application Software Development and Program Change Control

                  Recommendation                      Status                  Management Response
   06-HOC-08, 1.17
                                                               The CAO believes appropriate action has been taken to
   Develop, document, and implement controls          Open 2
                                                               close this recommendation. This recommendation will
   over movement of program changes for
                                                               be reviewed and considered for closure during the next
   Paylinks. Controls should be adequate to
                                                               audit cycle.
   ensure that only authorized changes are moved
   into production, and management is notified.
   08-HOC-13, 3.02
   Develop, document, and implement procedures        Open     The CAO believes appropriate action has been taken to
   to ensure that users do not install any personal            close this recommendation. This recommendation will
   or unlicensed software, or any software                     be reviewed and considered for closure during the next
   instances in excess of current license                      audit cycle.
   agreements. This may include the use of
   automated tools or other tracking systems to
   ensure that the existence of any personal or
   unlicensed software, or any software instances
   in excess of current license agreements are
   detected, reported, acted on and corrected.

   Segregation-of-Duty Controls

                  Recommendation                      Status                  Management Response
   06-HOC-08, 1.20
                                                               The CAO believes appropriate action has been taken to
   Develop, document, and implement policies          Open
                                                               close this recommendation. This recommendation will
   and procedures to ensure that CAO financial
                                                               be reviewed and considered for closure during the next
   systems identify incompatible duties and
                                                               audit cycle.
   enforce segregation-of-duty controls both at the
   end user and administrative levels.
   06-HOC-08, 1.21
   Develop and implement procedures to ensure         Open     The CAO believes appropriate action has been taken to
   that segregation-of-duty principles are                     close this recommendation. This recommendation will
   understood by key personnel, such as system                 be reviewed and considered for closure during the next
   and data owners and program managers.                       audit cycle.




   2
     During our review of CAO responses to Independent Auditor's Report on Internal Control related to the House CY
   2007 Annual Financial Statement Audit, we noted that CAO still does not perform logging and monitoring to ensure
   that only authorized PayLinks changes are introduced into production. When changes are moved into production,
   management personnel are alerted only if the person moving the change notifies them.




   34
Independent Auditor’s Report

   SUMMARY OF CLOSED PRIOR-YEAR FINANCIAL STATEMENT AUDIT RECOMMENDATIONS

   The following prior-year recommendations were closed when changes in House operations remedied the
   associated underlying weaknesses:

   07-HOC-08, 1.1      The House properly recognized services rendered for postal services at the offsite facility
                       during FY 2008.
   07-HOC-08, 1.2       The quality control and review process related to the preparation of year-end financial
                       statements operated effectively. Additionally, the process applied to report the accounts
                       receivables related to payroll transactions were effective during FY 2008.
   07-HOC-08, 1.3      The beginning balances related to Inventory Held for Resale and Capital Lease Liabilities
                       general ledger accounts were accurately recorded in FFS based on the prior year ending
                       balance.
   07-HOC-08, 1.4      The Accounts Payable accrual methodology developed and implemented during FY 2008 was
                       appropriate and accounted for properly.
   07-HOC-08, 1.6      The proper procedures to report contingent liabilities at year end were developed and
                       implemented during FY 2008.
   07-HOC-08, 1.7      Procedures for ensuring the correct amount of deferred revenue is recognized properly are
                       sufficient.
   07-HOC-08, 2.1      Procedures related to the Final Payroll Certification performed between Payroll and Benefits,
                       Payroll Operations and House Employing Offices were properly documented.
   07-HOC-08, 2.2      The Payroll department increased correspondence with House Employing Offices related to
                       Personnel Authorization Forms (PAFs) submitted by the 15th of each month.
   07-HOC-08, 2.3      The Federal Tax Withholdings submitted through the FEDTAX program was accurately
                       reported during FY 2008.
   07-HOC-08, 2.4      Payroll reconciliation procedures related to Gross to Net Payroll and the Tracking Log for
                       cancelled and stop payment payroll checks were documented and/or updated appropriately.
   05-HOC-07, 2.02     Modify HISPUB 024 (pending) to require CAO SSPs to identify specific individuals as system
                       and data owners.
   05-HOC-07, 2.03     Modify HISPUB 024 to include guidance on what expected behaviors should be documented
                       within CAO SSPs. CAO should fully implement all requirements identified in HISPUB 024
                       by updating CAO SSPs to comply with HISPUB 024.
   06-HOC-08, 1.03     Require all CAO employees and contractors who are users of the Network/Financial systems
                       to read and sign expected rules of behavior.
   06-HOC-08, 1.01     Develop, document, and put in place procedures to ensure all new CAO employees and
                       contractors complete security awareness training before being granted access to the network
                       and financial applications.
   06-HOC-08, 1.02     Develop, document, and implement a formal certification and accreditation program to
                       achieve:
                            x Certification and accreditation of the general support system and all major financial
                                applications.
                            x Recertification every 3 years or when major changes occur.
                            x Development of a SSP for the House general support system (network) to include
                                requirements identified in HISPUB 024.
                            x Identification of system owners and administrators including security administrators.
   05-HOC-07, 2.04     Controls are not adequate to ensure that CAO network access authorizations are:
                            x Documented on standard forms and maintained on file,
                            x Approved by senior managers, and
                       Securely transferred to security managers
   05-HOC-07, 2.09     Document policies and procedures for granting emergency and temporary access. Monitor
                       emergency and temporary access, and automatically terminate access after a predetermined
                       period when possible.
   06-HOC-08, 1.07     Develop policies and procedures to ensure that standard security configuration baselines are
                       developed, tested, and implemented for all CAO financial applications before placing them
                       into production. When management must configure a database against industry best practice
                       for functionality reasons, clearly document this in the security baseline.



                                                                                                                       35
Independent Auditor’s Report

   06-HOC-08, 1.08     Update Paylinks SSP to address logging and monitoring at the application and database levels.
                       The SSP should identify what information or activities are to be logged; how long logs are to
                       be retained, who has access to logs, and who should review logs.
   05-HOC-07, 2.06     Identify and document specific activities that security administrators should be logging and
                       reviewing on a weekly basis such as failed logon attempts, changes to security profiles, and
                       unsuccessful attempts to access unauthorized systems or data by users and outsiders.
   07-HOC-08, 1.02     Enforce FAIMS account review policies and procedures to ensure that inactive accounts are
                       disabled when no longer needed. Ensure user’s access within FAIMS agrees with their
                       authorized access documented on access request forms.
   07-HOC-08, 1.04     Update House incident response policies to require annual incident response training and
                       conduct the annual training.
   06-HOC-08, 1.09     Ensure that security audits are performed in accordance with House Information Security
                       Policy 007.
   06-HOC-08, 1.10     Develop and document standard security configuration baselines for all operating systems
                       supporting CAO financial applications. Standard security configurations should be
                       documented and clearly show how the operating system is intended to be configured. When
                       risky or sensitive settings or processes must be used, management should clearly document
                       reasons in the standard security configuration baseline.
   06-HOC-08, 1.11     Develop, document, and test emergency procedures for the Ford data center.
                       Ensure that procedures include specific steps to take in the data center during an emergency
                       and identify who is responsible for taking such steps. Address activities such as emergency
                       shutdown of systems and responding to fires or water leaks.
   08-HOC-13, 3.01     Develop, document, and implement configuration management procedures to ensure that
                       requests and related management approvals are documented and maintained for all changes
                       due to Active Directory Windows service packs, hot fixes, and patches. Procedures should
                       ensure that all initial requests for changes are documented, even if they are never implemented;
                       that approvals are documented within requests forms to note management approval of the
                       initial requests, management approval of test plans prior to testing, and management approval
                       prior to implementation of the change.
   06-HOC-08, 1.12     Require that functional/ technical specification documentation submitted by the developer be
                       attached or included with change request forms and other documentation supporting changes to
                       Paylinks.
   06-HOC-08, 1.13     Develop procedures to ensure that test plans and results for changes are documented and
                       included with other documentation supporting changes to Paylinks.
   06-HOC-08, 1.15     Develop, document, and implement controls to ensure that only authorized and approved
                       changes to Paylinks are introduced into production.
   06-HOC-08, 1.16     Periodically review production program changes to ensure that access and change controls are
                       being followed.
   06-HOC-08, 1.18     Develop and implement procedures to ensure that systems are developed and tested in
                       accordance with House SDLC requirements and industry best practices, particularly in light of
                       the forthcoming FFS replacement.
   07-HOC-08, 1.05     Identify, document, and implement controls for incompatible functions in FAIMS. Specific
                       activities which should be considered include system administration, security administration,
                       and system development. If management determined individuals need access within the system
                       which is traditionally considered excessive or incompatible, management should identify and
                       implement compensating controls to reduce the risk of unauthorized activities occurring.




   36
Office of the Chief Administrative Officer
                   Audit Report Response




                                       37
Independent Auditor’s Report




                                    APPENDIX B
                               MANAGEMENT COMMENTS




   38
Independent Auditor’s Report




                               39
Independent Auditor’s Report




   40
Independent Auditor’s Report




                               41
Independent Auditor’s Report




   42
Independent Auditor’s Report




                               43
     This Page Intentionally Left Blank




44
Fiscal Year 2008 Financial Statements




                                  45
2008 Financial Statements



                              U.S. House of Representatives
                      Consolidated Statement of Financial Position
                    as of September 30, 2008 and September 30, 2007

                                                                2008              2007
                                                             Consolidated      Consolidated
           ASSETS
             Fund Balance with U.S. Treasury (Note 4)        $   169,311,592   $   197,273,657
             Cash (Note 4)                                               739             1,731
               Fund Balance with U.S. Treasury and Cash          169,312,331       197,275,388

              Accounts Receivable, Net (Note 5)                      513,569           582,090
              Advances and Prepayments (Note 6)                    4,244,321         5,415,179
              Inventory                                            1,247,985         1,685,937
              Property and Equipment, Net (Note 7)                57,243,868        44,911,359
                 Total Assets                                $   232,562,074   $   249,869,953

           LIABILITIES AND NET POSITION
             Accounts Payable (Note 9)                       $    40,071,711   $    36,333,389
             Capital Lease Liabilities (Note 8)                    6,957,008         1,103,289
             Accrued Funded Payroll and Benefits (Note 10)         8,841,009         7,694,679
             Accrued Workers’ Compensation (Note 10)               2,108,616         2,580,573
             Accrued Unfunded Annual Leave (Note 10)               6,131,784         5,428,091
             Deferred Credits (Note 11)                            1,217,375         3,371,955
             Unfunded Workers’ Compensation
               Actuarial Liability (Note 12)                      22,392,436        21,416,485
             Other Liabilities                                       107,493           280,944
               Total Liabilities                                  87,827,432        78,209,405

              Unexpended Appropriations                          101,638,132       130,918,403
              Cumulative Results of Operations                    43,096,510        40,742,145
                Total Net Position (Note 13)                     144,734,642       171,660,548

                 Total Liabilities and Net Position          $   232,562,074   $   249,869,953




   46
2008 Financial Statements


                         U.S. House of Representatives
                      Consolidated Statement of Operations
        for the Years Ended September 30, 2008 and September 30, 2007
                                                                2008                  2007
                                                             Consolidated          Consolidated
      REVENUE AND FINANCING SOURCES
        Revenue from Operations
          Sales of Goods                                 $        2,973,938    $         2,647,063
          Sales of Services to Federal Agencies                   4,061,714              4,604,975
          Sales of Services of the Public                           927,445                924,716
          Interoffice Sales (Note 14)                                     -                      -
          Other Revenue                                             991,411                600,603
             Total Revenue from Operations                        8,954,508              8,777,357

         Financing Sources
            Appropriations to Cover Expenses:
              Appropriations Expended (Note 15)                1,338,630,992         1,239,261,523
              Appropriations Unexpended (Note 15)                  2,679,644             1,137,887
            Imputed Financing Source (Note 16)                    56,526,799            58,745,201
              Total Revenue and Financing Sources        $     1,406,791,943   $     1,307,921,968

      EXPENSES
        Personnel Compensation                           $       752,712,069   $       720,303,454
        Benefits (Note 16)                                       306,706,989           298,666,559
        Postage and Delivery                                      34,779,829            16,350,352
        Repairs and Maintenance                                   60,976,495            53,546,925
        Depreciation and Amortization (Note 7)                    15,816,197            20,129,990
        Rent, Communications, and Utilities                       27,396,324            27,652,162
        Telecommunications                                        25,262,524            28,790,797
        Supplies and Materials                                    16,268,886            17,538,259
        Travel and Transportation                                 43,542,733            35,427,049
        Contract, Consulting, and Other Services                  70,676,664            56,260,737
        Printing and Reproduction                                 30,900,844            14,971,278
        Subscriptions and Publications                            12,722,097             9,509,895
        Cost of Goods Sold                                         6,381,566             6,779,735
        Other Expenses                                             1,460,149               594,319
        Bad Debts                                                    226,009               360,385
        Interest on Capital Leases                                   199,016               216,459
              Total Expenses                             $     1,406,028,391   $     1,307,098,355

               Excess (Shortage) of Revenue and
                 Financing Sources over Total Expenses   $          763,552    $          823,613

      CHANGE IN NET POSITION
        Net Position, Beginning Balance                  $      171,660,548    $      156,667,490
        Excess (Shortage) of Revenue and Financing
              Sources over Total Expenses                            763,552              823,613
        Plus (Minus) Non-Operating Changes                      (27,689,458)           14,169,445
        Net Position, Ending Balance                     $       144,734,642   $      171,660,548


                                                                                                     47
2008 Financial Statements



                         U.S. House of Representatives
                     Consolidated Statement of Cash Flows
        for the Years Ended September 30, 2008 and September 30, 2007
                                                                          2008                   2007
                                                                       Consolidated           Consolidated
  CASH FLOWS FROM OPERATING ACTIVITIES
    Excess / (Deficiency) of Revenue and
      Financing Sources over Expenses                              $           763,552    $           823,613
    Adjustments affecting Cash Flow
      Expended and Unexpended Appropriations                            (1,341,310,636)        (1,242,212,658)
      (Increase)/Decrease in Accounts and Interoffice Receivable              (157,488)              (109,206)
      Increase/(Decrease) in Allowance for Doubtful Accounts                   226,009                272,915
      (Increase)/Decrease in Advances and Prepayments                        1,170,858             (2,707,820)
      (Increase)/Decrease in Inventory                                         437,952                197,820
      Increase/(Decrease) in Accounts and Interoffice Payable                3,738,322              4,646,776
      Increase/(Decrease) in Other Accrued Liabilities                       6,615,948              1,426,840
      (Gain)/Loss on Disposal of Assets                                        460,149                594,319
        Depreciation and Amortization                                       15,816,197             20,129,990


        Net Cash Provided / (Used) by Operating Activities              (1,312,239,137)        (1,216,937,411)

  CASH FLOWS FROM INVESTING ACTIVITIES
    Purchase of Property and Equipment                                     (18,578,485)           (16,055,046)

        Net Cash Provided / (Used) by Investing Activities                 (18,578,485)           (16,055,046)

  CASH FLOWS FROM FINANCING ACTIVITIES
    Appropriations                                                       1,307,838,000          1,265,463,431
    Funds Returned to the U.S. Treasury                                     (4,247,192)            (9,817,745)
    Principal Payment on Capital Lease Liabilities                            (736,243)               (84,963)

        Net Cash Provided / (Used) by Financing Activities               1,302,854,565          1,255,560,723

     Net Cash Provided / (Used) by Operating, Investing,
       and Financing Activities                                            (27,963,057)            22,568,266

     Fund Balance with U.S. Treasury and Cash, Beginning                   197,275,388            174,707,122

     Fund Balance with U.S. Treasury and Cash, Ending              $       169,312,331    $       197,275,388




   48
Notes to the Financial Statements




                              49
Notes to the Financial Statements




NOTE 1 - DESCRIPTION OF THE REPORTING ENTITY
The U.S. House of Representatives (House) is one of two                    Committee on Foreign Affairs
separate legislative chambers that comprise the Congress                   Committee on Homeland Security
of the United States. The other is the U.S. Senate (Senate).               Committee on House Administration
All lawmaking powers of the Federal government are                         Committee on the Judiciary
given to the Congress under Article I of the Constitution                  Committee on Natural Resources
of the United States. The House and Senate jointly agree                   Committee on Oversight and Government
on a budget for the Legislative Branch and submit it to the                   Reform
President of the United States. The Members of the House                   Committee on Rules
serve two-year terms of office, which coincide with the                    Committee on Science and Technology
sequential numbering of the entire Congress.                               Committee on Small Business
                                                                           Committee on Standards of Official Conduct
To help carry out its constitutional duties, the House creates
                                                                           Committee on Transportation and Infrastructure
committees of Members and assigns them responsibility
                                                                           Committee on Veterans’ Affairs
for gathering information, identifying policy problems,
                                                                           Committee on Ways and Means
proposing solutions, and reporting bills to the full chamber
                                                                           Permanent Select Committee on Intelligence
for consideration. The House appoints unelected officers to
                                                                           Select Committee on Energy Independence and
administer both legislative and non-legislative functions,
                                                                              Global Warming
which support the institution and its Members in carrying
                                                                           Select Committee on Voting Irregularities
out its legislative duties. The consolidated comparative
financial statements of the House provide financial
                                                                  The House Leadership Offices financial information
information on the activities of all entities, which are
                                                                  aggregates transactions of:
subject to the authority vested in the House by the U.S.
Constitution, public laws, and rules and regulations adopted               Speaker of the House
by the membership of the House.                                            Majority and Minority Leaders
                                                                           Majority and Minority Whips
These financial statements reflect the organizational structure
                                                                           Party Steering Committees, Caucus or
of the House under the 110th Congress. The following is a
                                                                              Conference, which consist of Representatives
summary of the entity groupings as they appear in the fiscal
                                                                              of the same political party
year 2008 consolidating financial statements:
                                                                  The Officers and Legislative Offices financial information
House Members are elected from congressional districts of
                                                                  aggregates transactions of all legislative support and
approximately equal population. The financial information
                                                                  administrative functions provided to Members, Committees,
aggregates transactions of the Member districts and
                                                                  and Leadership offices, including:
Washington, D.C. offices, and includes 435 Representatives;
four Delegates, one each, from the District of Columbia,
                                                                           Chaplain
Guam, Virgin Islands, and American Samoa; and one
                                                                           Chief Administrative Officer
Resident Commissioner from Puerto Rico.
                                                                           Office of Emergency Planning, Preparedness and
The Committees financial information aggregates                               Operations
transactions of the Standing and Special and Select                        Clerk of the House
Committees of the 110th Congress. Committees are                           Office of Congressional Ethics
organized at the beginning of each Congress according to                   Office of the General Counsel
their jurisdictional boundaries incorporated in the Rules of               Office of Inspector General
the House. The Committees of the House under the 110th                     Office of the Historian
Congress are:                                                              Office of the Law Revision Counsel
                                                                           Office of the Legislative Counsel
          Committee on Agriculture                                         Parliamentarian
          Committee on Appropriations                                      Sergeant at Arms
          Committee on Armed Services
          Committee on the Budget                                 The Joint Functions financial information aggregates
          Committee on Education and Labor                        transactions of the joint activities of the House and the
          Committee on Energy and Commerce                        Senate to the extent that the House funds these functions in
          Committee on Financial Services



   50
Notes to the Financial Statements




 whole or in part. House administrative management does not       Eliminations on the consolidating financial statements are
 exert direct control over the expenditures of these functions.   used to negate the effect of financial transactions between
 The joint functions in these statements include:                 House entities. Consolidated House financial information
                                                                  would be misleading if inter-entity transactions were not
           Attending Physician                                    eliminated.
           Joint Committee on Taxation, which has members
              from both the House and the Senate




 NOTE 2 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

 A. Basis of Consolidation                                        C. Fund Balance with the U.S. Treasury and
 The financial statements include the accounts and                Cash
 significant activities of the House. The consolidated            Funds available to the House to pay current liabilities
 financial statements do not include legislative agencies that    and finance authorized purchases are held with the U.S.
 support the House and that receive separate appropriations.      Treasury.
 These agencies are:                                                  •    Fund Balance with the U.S. Treasury includes
           Library of Congress                                             House accounts, as well as the Congressional Use
           Congressional Budget Office                                     of Foreign Currency account, which is held at the
           Government Accountability Office                                U.S. Treasury and is maintained and administered
           Government Printing Office                                      by the Department of State on behalf of the
           U.S. Botanic Garden                                             House.
           Architect of the Capitol
           U.S. Capitol Police                                        •    For purposes of the Consolidated Statement of
                                                                           Cash Flows, funds held with the U.S. Treasury
 Functions jointly shared between the House and the Senate                 are considered cash.
 are included in the consolidating financial statements to the
 extent their operations are funded by House appropriations.      D. Accounts Receivable
 These consist of :                                               Accounts receivable consists of money owed the House
           Attending Physician                                    by Federal agencies, Members, employees and/or vendors
           Joint Committee on Taxation, which has                 less an Allowance for Doubtful Accounts.
              members from both the House and the Senate
                                                                  E. Advances and Prepayments
                                                                  Advances consist of payments to Federal government
 All significant interoffice balances and transactions
                                                                  entities for contractual services and for mailings that
 have been eliminated to arrive at consolidated financial         require address corrections or additional postage.
 information.                                                     Prepayments primarily consist of prepaid subscriptions
                                                                  for publications and data communication services.
 B. Basis of Accounting
 The House, in accordance with generally accepted                 F. Inventory
 accounting principles, utilizes the accrual basis of             The Office Supply Service & Gift Shop maintain an
 accounting, which provides for the recognition of events as      inventory of goods for sale. These entities are included
 they occur, as opposed to when cash is received or disbursed.    with Officers and Legislative Offices in the consolidating
 Therefore, revenues are recorded when earned and expenses        financial statements. Inventories for sale are valued at the
 are recorded when a liability is incurred, without regard to     moving weighted average method.
 receipt or payment of cash. The accrual basis of accounting
 contributes significantly to the development of accurate         Furnishings, also included with Officers and Legislative
 cost information needed to report the financial position and     Offices, maintains inventories of such items as hardwood,
 results of operations.                                           carpet, leather, fabric, furniture components, and repair




                                                                                                                         51
Notes to the Financial Statements



materials. These items are not for sale and are reflected in     J. Revenue from Operations
the financial statements at an estimated value based on the      Revenue is recognized when goods have been delivered or
first in/first out inventory valuation method.                   services rendered.

G. Property and Equipment                                            •    Sales of goods to the public consist of Office Supply
Property and equipment including computer purchases                       Service and Gift Shop sales.
are capitalized if the unit acquisition cost is equal to or
greater than $25,000 and the item has a useful life greater          •    Sales of services to the public are comprised of
than one year. Software is capitalized if the unit acquisition            Photography sales, Child Care fees, Postal fees and
cost is equal to or greater than $10,000 and the item has a               Attending Physician fees.
useful life greater than one year. The costs of such items
are recognized as assets when acquired. An appropriate               •    Interoffice sales between House entities consist
portion of an asset’s value is reduced and an expense                     of graphic services, telecommunications, office
recognized over the accounting periods benefited by the                   supplies, framing, recording, office equipment,
asset’s use. See Note 7, Property and Equipment, for                      photography, tape duplication, and are eliminated
additional information on property and equipment held by                  on the consolidating financial statements.
the House.
                                                                     •    Other revenue consists of Page School room and
The House has possession of numerous assets that may                      board, and vendor commissions.
be of significant historical and artistic value. The House
does not include these assets in the financial statements.
                                                                 K. Appropriations to Cover Expenses
The land and buildings occupied and used by Members,
                                                                 Like other Federal government organizations, the House
officers, and employees in Washington, D.C. are under the
                                                                 finances most of its operations with appropriations. The
custody of the Architect of the Capitol and are not included
                                                                 expenses of Members, Committees, and Leadership offices
in the financial statements of the House.
                                                                 are entirely financed with appropriations. Other House entities
H. Leases                                                        require appropriations to the extent the revenue generated
The House leases office space, vehicles, computers and           does not cover expenses. Appropriations are considered a
other equipment. These leases are generally classified as        financing source, not a revenue, since appropriations do not
operating leases. House regulations require that leases          result from an earnings process.
entered into by Members for space and vehicles be no
                                                                 L. Postage and Delivery
longer than the elected term of the Member. The House
                                                                 Postage and delivery consists of franked mail expenses
also enters into leases, which are structured such that their
                                                                 and miscellaneous postage expenses. Members’ postage
terms effectively finance the purchase of the item. Such
                                                                 includes the use of the Frank, which is charged to the
leases convey the benefits and risks of ownership and
                                                                 Members’ Representational Allowance. Miscellaneous
are classified as capital leases, if the net present value
                                                                 postage expenses include courier charges, stamps, and rental
of the minimum lease payments due at lease inception
                                                                 of post office boxes.
meets House capitalization criteria. Items acquired by
capital leases are recorded as House assets. The asset and       M. Repairs and Maintenance
corresponding liability are recorded at the net present value    Repairs and maintenance include all expenses related to
of the minimum lease payments at lease inception. The            the maintenance and upkeep of House equipment in both
portion of capital lease payments representing imputed           Washington, D.C. and in Members’ district offices, as well
interest is expensed as interest on capital leases. See Note     as the expense for operating leases on various types of
8, Lease Commitments, for additional lease information.          equipment. In addition, property and equipment purchases
                                                                 below the capitalization thresholds discussed in Note 2G,
I. Deferred Credits                                              Property and Equipment, are classified as repairs and
The House receives advance payments from other Federal           maintenance.
government entities for shared services, in advance of the
delivery of these services. These advance payments are           N. Depreciation and Amortization
recorded as deferred credits. As the services are rendered the   The cost of capital assets is allocated ratably over an asset’s
deferred credit account is drawn down and the appropriate        useful life as depreciation or amortization expense. The
revenue is recognized.                                           House calculates depreciation and amortization expense
                                                                 based on the straight-line method over an asset’s estimated
                                                                 useful life. Depreciation expense is applicable to tangible



   52
Notes to the Financial Statements




 assets such as furniture, equipment, and vehicles.               V. Cost of Goods Sold
 Amortization expense is applicable to intangible assets          Cost of goods sold includes the cost of products sold in
 such as software and capital leases. Assets acquired under       the retail operations of the Office Supply Service and Gift
 capital leases are generally amortized over the lease term.      Shop, and the cost of services provided to federal and non-
 However, if a lease agreement contains a bargain purchase        federal entities, such as the House postal facility.
 option or otherwise transfers title of the asset to the
 House, the asset is amortized on the same basis as similar       W. Loss or Gain on Disposal of Assets
 categories of owned assets.                                      A loss is recognized when the net book value of the asset at
                                                                  the time of disposal exceeds any proceeds received. A gain
 O. Rent, Communications, and Utilities                           is recognized when the net book value of the asset at the
 Rent and utilities consist primarily of the rental of district   time of disposal is less than any proceeds received.
 offices by Members and any related utility payments.
 Communications costs consist of charges for news wire            X. Annual Leave
 services, satellite fees, and external network access            Annual leave for the House Officers and their employees
 services.                                                        is accrued as earned, and the liability is reduced as leave is
                                                                  taken. The accrued annual leave balance as of September
 P. Telecommunications                                            30, 2008 is calculated according to Public Law 104-53,
 Telecommunications expense includes local and long               November 19, 1995, Sec. 109 Stat. 522. See Note 10,
 distance telephone service in Washington, D.C. and in            Accrued Payroll and Benefits and Leave, for additional
 Members’ district offices.                                       information.

 Q. Supplies and Materials                                        Y. Federal Employee and Veterans Benefits
 Supplies and materials include office supplies used by           This benefit expense includes the current cost of providing
 the House and medical supplies used by the Attending             future pension benefits to eligible employees at the time
 Physician. Supplies and materials do not include inventories     the employees’ services are rendered. Also included is the
 held for sale by retail entities such as the Office Supply       current period expense for the future cost of providing
 Service and Gift Shop.                                           post-retirement health benefits and life insurance to
                                                                  House employees. See Note 16, Benefits, for additional
 R. Travel and Transportation                                     information.
 Travel and transportation expenses include official travel
 by Members, Committees, and Leadership offices; travel           Z. Use of Estimates
 by other House officers and employees and congressional          The preparation of financial statements requires management
 delegations; freight and shipping costs; and expenses            to make estimates and assumptions that affect the reported
 related to the lease and maintenance of vehicles.                amount of assets and liabilities, as well as the disclosure of
                                                                  contingent assets and liabilities at the date of the financial
 S. Contract, Consulting, and Other Services                      statements, and the amount of revenue and expense
 Contract, consulting, and other services include the cost        reported during the period. Actual results could differ from
 of management services in House Postal Operations,               those estimates.
 annual audit fees, the cost of studies and analyses, as well
 as computer, janitorial, catering, and audio and video
 services.

 T. Printing and Reproduction
 This category primarily includes printing and reproduction
 of constituent communications. Also included are
 photography services, and printing and reproduction of
 items such as informational publications and reference
 materials.

 U. Subscriptions and Publications
 Subscriptions and publications include the cost of
 periodicals and online news services.




                                                                                                                          53
Notes to the Financial Statements



NOTE 3 - INTRA-GOVERNMENTAL FINANCIAL ACTIVITIES

The House has significant intra-governmental financial                The House also reports significant financial transactions
activities with Executive and Legislative Branch entities.            with the U.S. Department of State, which maintains and
These financial activities include transactions and agreements        administers the Congressional Use of Foreign Currency
to purchase goods and services.                                       account on behalf of Congress. This account, which was
                                                                      established in 1948 and made permanent in 1981, is
Transactions with Executive Branch Agencies                           authorized by legislation codified in Title 22, Sec. 1754
The House’s most significant interagency transactions are             of the United States Code. The funds are available to
with the:                                                             Congressional Committees and delegations to cover local
    • U.S. Postal Service for postage,                                currency expenses incurred while traveling abroad. The
    • General Services Administration for the use and                 fund balance related to the account is included in Fund
          upkeep of office space in certain Members’ district         Balance with U.S. Treasury under Officers and Legislative
          offices, office supplies and leased vehicles,               Offices.
    • U.S. Department of Labor for unemployment and                   Use of the foreign currency account for Congressional
          workers’ compensation,                                      delegations and other official foreign travel of the House
    • U.S. Department of Education for the student loan               is authorized by either the Speaker of the House or the
          program,                                                    chairman of a Standing, Special and Select, or Joint
    • U.S. Department of Transportation for transit benefits          Committee. Therefore, all foreign currency account
          program,                                                    financial activity is reported as Committee and Leadership
                                                                      office travel expense.
    • Department of Defense for contractual and maintenance
          services,
                                                                       Foreign Currency Balance with
    • U.S. Department of Energy for contractual services,              the U.S. Department of State
                                                                                                             2008            2007

    • U.S. Department of Homeland Security for security                Beginning Balance                  $ 33,461,569    $ 26,918,332
          services,                                                    Appropriation Received               18,000,000      15,000,000
    • U.S. Department of the Interior, U.S. Geological                 Travel Expenses:
          Survey, National Business Center for financial system           Leadership                        (2,094,205)     (2,061,610)
          contract and consulting services, and
                                                                          Committees                       (10,636,855)     (6,395,153)
    • Other Executive Branch agencies for special studies
          as requested by House.                                       Ending Balance                     $ 38,730,509    $ 33,461,569


Significant cash disbursements to Executive Branch agencies
during the fiscal years ended September 30, 2008 and 2007
were approximately:                                                   Transactions with Legislative Branch Agencies
                                                                      The House pays for support services provided by other
 Disbursements to Executive Branch                                    Legislative Branch entities. These entities receive their
                                           2008           2007
 Agencies
                                                                      own appropriations and operate autonomously from the
 U.S. Postal Service                    $ 34,105,000   $ 16,039,000   House’s administrative functions. The House received
 General Services Administration           4,261,000      4,696,000   support services from the United States Senate in 2008. The
 U.S. Department of Labor                  2,899,000      3,903,000   House also receives support services from the Government
 U.S. Department of Education              2,459,000      2,374,000   Printing Office, Government Accountability Office, and the
 U.S. Department of Transportation         2,242,000      2,076,000
                                                                      Architect of the Capitol.
 Department of Defense                     2,142,000      1,870,000
                                                                       Disbursements to Legislative
 U.S. Department of Energy                  710,000        338,000                                            2008           2007
                                                                       Branch Entities
 U.S. Department of Homeland Security       429,000        177,000     United States Senate                 $ 1,168,000      $ 988,000
 U.S. Department of the Interior            428,000        524,000     Government Printing Office               613,000         29,000
 Other Executive Branch Agencies            232,000          49,000    Government Accountability Office         246,000        187,000
                                                                       Architect of the Capitol                 234,000        330,000




    54
Notes to the Financial Statements




The House also receives payments for services provided to            Cash Receipts from Legislative
the Congressional Budget Office and the Architect of the                                                      2008         2007
                                                                     Branch Entities
Capitol and for the reimbursement of services shared with            Library of Congress              $ 4,146,000         $ 4,388,000
other Federal government entities. In 2008, the House shared         United States Senate                             -         468,000
services with the Library of Congress. In 2007, the House
                                                                     Architect of the Capitol                   261,000         250,000
shared services with the Library of Congress and the U.S.
                                                                     Congressional Budget Office                 78,000          70,000
Senate. Cash receipts decreased due to the U.S. Senate opting
out of utilizing the off-site House Postal Facility in 2008.


 NOTE 4 - FUND BALANCE WITH THE U.S. TREASURY AND CASH

 The House has appropriated and revolving fund balances              The House usually receives the full amount of its
 with the U.S. Treasury. The balances, as of September 30,           appropriation at the beginning of each fi scal year.
 2008 and 2007 were:                                                 Cash on Hand represents deposits in transit and amounts
  Fund/Cash Accounts
                                        2008           2007
                                                                     held in a commercial bank account. Cash on Hand was
  Maintained by the House                                            $739 and $1,731 as of September 30, 2008 and 2007,
  Fund Balance with Treasury/Cash   $ 130,581,822   $ 163,813,819    respectively.
  Congressional Use of Foreign
                                       38,730,509      33,461,569
  Currency
       Total                        $ 169,312,331   $ 197,275,388



 NOTE 5 - ACCOUNTS RECEIVABLE
 Accounts Receivable balances represent amounts owed                  Accounts Receivable                     2008             2007
 the House by Federal agencies, Members, employees                    Accounts Receivable             $ 1,633,794          $ 1,476,306
 and/or vendors less an allowance for doubtful accounts.
                                                                      Less: Allowance for Doubtful
 The Allowance for Doubtful Accounts was derived from                                                     (1,120,225)           (894,216)
                                                                      Accounts
 the receivables amount owed to the House for more                    Accounts Receivable, Net            $    513,569     $     582,090
 than six months. The House is actively pursuing these
 overpayments.


 NOTE 6 - ADVANCES AND PREPAYMENTS

 Advances and prepayments are transfers of cash to cover            expense and prepayment amounts applicable to the current
 future expenses or the acquisition of assets. These goods          accounting period for financial statement purposes.
 and/or services are delivered in increments that span several      Advances and Prepayments are:
 months. Advance payments are recorded as assets. As the
 goods and/or services are rendered, the Advance account
                                                                     Advances and Prepayments             2008                 2007
 is drawn down and the appropriate asset or expense is
                                                                     Advances                         $               -    $       81,291
 recognized. Prepayments are made for subscriptions and
                                                                     Prepayments                              4,244,321         5,333,888
 software licenses and are charged as expenses. At year-
 end, all such payments made for the previous, current and             Total                          $ 4,244,321           $ 5,415,179
 succeeding years are analyzed to determine the proper




                                                                                                                                   55
Notes to the Financial Statements




 NOTE 7 – PROPERTY AND EQUIPMENT

  Software is capitalized if its acquisition cost equals or           and amortization expense is based on the straight-line
  exceeds $10,000. Also, vehicles and equipment, including            method over an asset’s estimated useful life. The change
  computers, are capitalized if their acquisition cost                in work in process is due to several projects not placed in
  equals or exceeds $25,000. Work in process consists of              service during the fiscal year. Property and equipment as
  capitalized costs associated with assets received, but not          of September 30, 2008 and the related depreciation and
  placed in service as of the fiscal year end. Depreciation           amortization expense are:


                         2008                 Service      Estimated         Accumulated          Estimated Net       Amortization/
          Classes of Property and Equipment     Life    Acquisition Value    Amortization/         Book Value         Depreciation
                                              (Years)                        Depreciation                               Expense
    Work in Process                             N/A         $   26,319,495   $                -      $ 26,319,495        $             -
    Computer Software and Hardware               3              76,913,883           70,629,883         6,284,000              7,520,300
    Assets Under Capital Lease                   3               4,107,369             114,094          3,993,275                114,094
    Computer Software and Hardware               5                 790,911             790,911                    -                    -
    Equipment                                    5              47,016,876           34,811,234        12,205,642              5,230,870
    Motor Vehicles                               5              10,524,770            7,113,465         3,411,305              1,888,556
    Furnishings and Other Equipment             10               1,686,189            1,538,100          148,089                  18,392
    Assets Under Capital Lease                  10               1,354,473             643,375           711,098                 135,447
    Leasehold Improvements                      10               9,085,375            4,914,411         4,170,964                908,538
        Total                                               $ 177,799,341     $ 120,555,473          $ 57,243,868         $ 15,816,197




  Property and equipment as of September 30, 2007 and the related depreciation and amortization expense are:

                        2007                  Service      Estimated         Accumulated          Estimated Net       Amortization/
         Classes of Property and Equipment      Life    Acquisition Value    Amortization/         Book Value         Depreciation
                                              (Years)                        Depreciation                               Expense
    Work in Process                            N/A         $    10,312,531       $            -     $ 10,312,531          $                -
    Computer Software and Hardware              3               83,979,429           74,103,583         9,875,846              11,534,626
    Computer Software and Hardware              5                 790,911               790,911                   -                        -
    Equipment                                   5               43,511,046           30,228,415        13,282,631               5,470,531
    Motor Vehicles                              5               10,499,782            5,151,960         5,347,822               2,064,928
    Furnishings and Other Equipment             10               1,808,757            1,642,276           166,481                  23,070
    Assets Under Capital Lease                  10               1,354,473              507,926           846,547                135,447
    Leasehold Improvements                      10               9,085,375            4,005,874         5,079,501                901,388
        Total                                              $ 161,342,304      $ 116,430,945          $ 44,911,359            $ 20,129,990




   56
Notes to the Financial Statements




     NOTE 8 – LEASE COMMITMENTS

     Capital Leases                                               of ownership, but do not meet House capitalization criteria
     The House enters into leases, which are structured           are also recognized as operating leases. Operating lease
     such that their terms effectively finance the purchase of    payments are recorded as expenses. Future operating lease
     the item. Such leases convey the benefits and risks of       payments are not accrued as liabilities. Members may
     ownership and are classified as capital leases, if the net   lease office space in their districts through GSA or may
     present value of the future minimum lease payments due       directly lease space from the private sector. The Members’
     at lease inception meets House capitalization criteria.      Congressional Handbook states that a Member cannot enter
     Items acquired by capital leases are recorded as House       into a lease for office space beyond his/her elected term.
     assets. The asset and corresponding liability are recorded   Members and officers also enter into leases to rent vehicles
     at the net present value of the future minimum lease         for official business purposes. A Member may lease a
     payments due at lease inception. Assets under capital        vehicle for a period that exceeds the current congressional
     lease consist of building structures and hardware.           term, but the Member remains personally responsible for
     Future Capital Lease Payments Due as of                      the lease liability if service to the House concludes prior
     September 30, 2008:                                          to lease termination. House administration also leases
                                                                  hardware and software.
      Year
      2009                                       $ 1,818,187      Future Operating Lease Payments Due as of September
      2010                                         1,848,474      30, 2008:
      2011                                         1,848,474
      2012                                         1,848,474
                                                                   Year       Vehicles      Office Space      Parking          Total
      2013                                          951,317
                                                                   2009       $ 433,559     $ 6,198,678       $ 30,530      $ 6,662,767
      Thereafter                                     75,357
                                                                   2010           132,207              -                -       132,207
      Total Future Capital Lease Payments        $ 8,390,283
                                                                   Total      $ 565,766     $ 6,198,678       $ 30,530      $ 6,794,974
      Less: Imputed Interest                      (1,433,275)
      Net Capital Lease Liabilities              $ 6,957,008
      Unfunded Liability                         $ 6,957,008      Lease expense for office space was $24,384,031 and
                                                                  $23,508,273 for the years ended September 30, 2008
     Operating Leases                                             and 2007, respectively. Lease expense for vehicles was
     The House enters into various operating leases for           $1,398,019 and $1,752,992 for the years ended September
     temporary usage of office space, vehicles, hardware,         30, 2008 and 2007, respectively.
     and software. Leases that convey the benefits and risks


    NOTE 9 - ACCOUNTS PAYABLE

     Accounts Payable balances represent amounts owed for         Accounts Payable                           2008             2007
     the cost of goods and services received but not yet paid.    Vendor Payables                          $ 39,895,011     $ 35,977,983
     Accounts Payable also includes amounts owed to DOL           Unemployment Compensation                    176,700          355,406
     for unemployment compensation.
                                                                          Total                            $ 40,071,711     $ 36,333,389




                                                                                                                                   57
Notes to the Financial Statements




NOTE 10 - ACCRUED PAYROLL AND BENEFITS AND LEAVE

The House has both funded and unfunded payroll,                   Leadership offices is estimated on the financial statements.
benefits and leave. A funded liability has a corresponding        In 2008, the estimate was based on a three-year average of
appropriation to liquidate it. An unfunded liability is a         actual annual leave paid. Accrued Workers’ Compensation
liability that is incurred during the current or prior year
                                                                  is the amount billed by Department of Labor that will be
but is not payable until a future fiscal year for which an
appropriation has not yet been received.                          paid in subsequent fiscal years. In 2008, there was a change
                                                                  in accounting practice. Accrued Workers’ Compensation
The accrued annual leave balances are calculated according        was changed from an unfunded to a funded liability.
to Public Law 104-53, November 19, 1995, Sec. 109 Stat.           Accrued annual leave and accrued payroll and benefits as
522 (i.e., the lesser of the employee’s monthly pay or the        of September 30, 2008 and 2007 were:
monthly pay divided by 30 days and multiplied by the
number of days of accrued leave). Sick and other types of
paid leave are expensed as they are taken. Accrued payroll         Accrued Leave, Payroll and
                                                                   Benefits, and Workers'               2008            2007
and benefits include salaries and associated benefits earned in    Compensation
the current fiscal year and paid in the subsequent fiscal year.    Funded
The Members’ and Committees’ Congressional Handbooks               Accrued Payroll and Benefits       $ 8,841,009    $ 7,694,679
allow offices to adopt personnel policies that provide for the     Accrued Workers'                     2,108,616              -
                                                                   Compensation
accrual of annual leave and use of such leave. Leadership
                                                                   Total Funded                       $ 10,949,625   $ 7,694,679
offices have also adopted similar policies. While leave is
tracked from one pay period to the next, a consistent policy       Unfunded
has not been formally adopted by these entities regarding          Accrued Annual Leave                 6,131,784      5,428,091
the accrual and payment of leave time. Therefore, an               Accrued Workers' Compensation                 -     2,580,573
accrued leave liability for Members, Committees, and               Total Unfunded                     $ 6,131,784    $ 8,008,664



NOTE 11 - DEFERRED CREDITS
In 2008, the House received payments in advance of receipt        Department of Defense and the Department of State. The
of shared services from the Library of Congress. In 2007,         deferred credit balance as of September 30, 2008 and 2007
the House received payments in advance of receipt of shared       was $1,217,375 and $3,371,955, respectively.
services from the Library of Congress, the U.S. Senate, the


NOTE 12 - UNFUNDED WORKERS’ COMPENSATION ACTUARIAL LIABILITY
The Federal Employees’ Compensation Act (FECA)                    patterns to predict what costs will be incurred in the future.
provides income and medical cost protection to covered            The liability is adjusted annually by applying actuarial
Federal civilian employees injured on the job, employees          procedures. Any upward or downward adjustment to the
who have incurred a work-related occupational disease,            liability is recorded as an annual increase or decrease
and beneficiaries of employees whose death is attributable        to benefits expense. The House calculated the actuarial
to a job-related injury or occupational disease. Claims           liability based on a model developed by DOL. The projected
incurred for the benefit of House employees under FECA            Unfunded Workers’ Compensation Actuarial Liabilities as
are administered by DOL, which pays the initial claim             of September 30, 2008 and 2007 were $22,392,436 and
and obtains reimbursement from the House. The unfunded            $21,416,485, respectively.
workers’ compensation actuarial liability is an estimate
based on actuarial calculations using historical payment




   58
Notes to the Financial Statements




 NOTE 13 - NET POSITION
                                                                                   Future Funding Requirements - Known liabilities
 The components of Net Position are:                                               to be funded by future appropriations for accrued
                                                                                   Annual Leave and Workers’ Compensation.
      •     Unexpended Appropriations - Appropriations are
            not considered expended until goods have been               Unexpended appropriations cancel at the end of the second
            received or services have been rendered.                    fiscal year following the year in which appropriated. As
                                                                        required by law, these funds must be returned to the U.S.
      •     Total Cumulative Results of Operations:
                                                                        Treasury general account. Funds that were canceled and
                                                                        returned to the U.S. Treasury during fiscal years 2008 and
            Cumulative Results of Operations - The net
            difference between expenses and revenue and                 2007 are:
            financing sources including appropriations,
            revenues from operations and imputed financing               Appropriations                  2008                    2007
            sources.                                                     2006                           $ 4,247,192          $             -
                                                                         2005                                      -               9,817,745
            Invested Capital - Funds used to finance capital                    Total                   $ 4,247,192           $ 9,817,745
            assets such as computer hardware and software,
            vehicles, equipment, and inventory.


  Net Position as of September 30, 2008 and 2007 for Appropriated Funds and Revolving Funds, including the House
  Recording Studio, Net Expenses of Equipment, Page School, House Services, Net Expenses of Telecommunications,
  and Office Supply Service revolving funds are shown in the following table:


                                                                         Net Position                               Net Position
   Net Position                                                      September 30, 2008                         September 30, 2007
                                                                           Totals                                     Totals
   Unexpended Appropriations                                                            $ 101,638,132                       $ 130,918,403
   Cumulative Results of Operations:
     Cumulative Results of Operations                          $ 20,085,883                             $ 24,673,286

     Invested Capital                                            51,534,846                               45,494,008
     Future Funding Requirements                                (28,524,219)                             (29,425,149)

          Total Cumulative Results of Operations                                           43,096,510                             40,742,145

   Total Net Position                                                                   $ 144,734,642                       $ 171,660,548




   Changes in net position may include prior period                     and inventory exceed (or are less than) the amounts of
   adjustments, excesses or shortages of revenue and                    liabilities to be funded by future appropriations.
   financing sources over expenses, and non-operating
                                                                        The Net Position table above reflects an additional cumulative
   changes, such as investments in capital assets and
                                                                        results of operations line which further disaggregates activity
   inventory. Increases (or decreases) in non-operating
                                                                        other than invested capital or future funding requirements.
   changes result when amounts invested in capital assets




                                                                                                                                         59
Notes to the Financial Statements




NOTE 14 - REVOLVING FUNDS, INTEROFFICE SALES, AND TRANSFERS

Some House entities transfer costs to Members, Committees,         •    Office Supply Service and Gift Shop, which
and other House offices for goods and services provided.                transfers office supply purchases and flag sales.
These entities are primarily:
                                                               Some House business-like entities operate as revolving
                                                               funds. A revolving fund is a budgetary structure established
     •   Customer Solutions, which transfers costs of
                                                               by statute that authorizes certain government agencies to
         equipment and services for recording, photography
                                                               collect user fees or revenue to finance operating expenses.
         and graphics to the Members and Committees,
                                                               In 2008, the House operated revolving fund type activities
     •   House Information Resources, which transfers          for the House Recording Studio, Page School, Office
         telecommunication charges, and                        Supply Service and Gift Shop, Child Care Center, and
                                                               House Services.


NOTE 15 - APPROPRIATIONS TO COVER EXPENSES
Appropriations Expended include current and prior year         Appropriations Unexpended consist of expenses that are
funds necessary to finance House operating expenses such       incurred in the current period, but will be funded by future
as personnel and benefits costs, contract services, and        appropriations. Such amounts include accrued actuarial
travel expenses. The House recognizes appropriations to        liabilities and annual leave.
cover expenses in the same period in which the associated
expense is incurred. Appropriations to cover investments
in capital assets and inventory are recognized in the same
period in which they are received.



NOTE 16 - BENEFITS

House Members and employees are covered by either the          to the Civil Service Retirement Fund. The House also
Civil Service Retirement System (CSRS) or the Federal          contributes an amount to this fund. FERS employees, in
Employees Retirement System (FERS). Both Members               addition to paying Social Security, contribute a portion of
and employees are eligible for retirement benefits under       their base earnings to the FERS retirement fund. The House
CSRS or FERS. A CSRS basic annuity, unreduced for age,         also contributes an amount toward the FERS retirement and
debts to the fund, or survivor’s benefits, is calculated by    Social Security funds.
multiplying the highest 3 consecutive years’ average salary
by a percentage factor which is based on the length of         Both FERS and CSRS employees can contribute to the
Federal service. However, Members’ benefits are different      Thrift Savings Plan (TSP) up to the IRS limit. FERS
from those of employees. For example, a Member covered         employees also receive an automatic one percent House-
by CSRS is eligible to receive unreduced retirement benefits   paid contribution, as well as an additional House matching
at age 60 if he or she has 10 years of Member service. An      TSP contribution up to five percent of their basic pay. CSRS
employee is eligible to receive reduced benefits at age        employee contributions to TSP do not receive matching
50 with 20 years of service or at any age with 25 years        House contributions. FERS employees could receive
of service. The FERS basic benefit plan provides the same      benefits from FERS, the Social Security System, and TSP.
benefits for either Members or employees.                      CSRS employees could receive benefits from CSRS and
                                                               TSP.
CSRS employees contribute a portion of their earnings




   60
Notes to the Financial Statements




 Member and Employee Benefits          2008           2007          amount being financed directly through the Civil Service
 Retirement Plan Contributions     $ 138,255,671   $ 134,238,538    Retirement and Disability Fund administered by OPM.
 Federal Employee and Veterans'       56,526,799      58,745,201
 Benefits                                                           The House does not receive an appropriation to fund this
 Social Security                      50,160,528      47,562,097    expense. Therefore, this portion of the pension expense
 Health Insurance                     43,888,901      42,384,648    is considered an imputed financing source to the House,
 Student Loan/Fitness Center           9,948,855       8,777,136    and is included in the Imputed Financing Sources on the
 Programs
                                                                    Statement of Operations. This amount was $11,086,203 in
 Unemployment and Workers'             1,671,000       3,783,124
 Compensation                                                       2008 and $11,226,160 in 2007.
 Annual Leave                            703,693     (2,797,139)
 Death Benefits                         926,124         975,421     Federal-employing entities also recognize a current period
 Transit Benefits                      2,489,071       2,072,218    expense for the future cost of post-retirement health benefits
 Life Insurance                        1,160,396       1,119,224
                                                                    and life insurance for its employees while they are still
 Workers' Compensation Actuarial
                                                                    employed. This cost is included in Federal Employee and
                                        975,951        1,806,091
 Adjustment                                                         Veterans’ Benefits expense in the Statement of Operations.
       Total                       $ 306,706,989   $ 298,666,559    Employees and the House do not currently make
                                                                    contributions to fund these future benefits, and the House
 Benefits costs for the past 3 years have averaged                  does not receive an appropriation to fund this expense.
 approximately $300 million per year.                               Therefore, this portion of the post-retirement health benefits
                                                                    and life insurance is considered an imputed financing
 Federal-employing entities recognize their share of the cost       source to the House, and is included in Imputed Financing
 of providing future pension benefits to eligible employees         Sources on the Statement of Operations. This amount was
 at the time the employees’ services are rendered. This cost        $45,440,596 in 2008 and $47,519,041 in 2007.
 is included in Federal Employee and Veterans’ Benefits
 expense. The pension expense recognized in the Statement of        Federal Employee and Veterans'
 Operations is the current service cost for House employees         Benefits                               2008          2007
 less the amount contributed by the employee.                       (Imputed Financing Source)
                                                                    Current Service Cost - Federal
                                                                                                       $ 45,326,565   $ 47,409,363
                                                                    Employees Health Benefits
 The measurement of the service cost requires the use of
                                                                    Current Service Cost - Federal
 actuarial cost methods and assumptions, with the factors                                                11,086,203     11,226,160
                                                                    Pensions
 applied by the House provided by the Office of Personnel           Current Service Cost - Federal
                                                                                                            114,031       109,678
 Management (OPM), the federal agency that administers              Employees Group Life Insurance
 the plan. The excess of the recognized pension expense                   Total                        $ 56,526,799   $ 58,745,201
 over the amount contributed by the House represents the

NOTE 17 - EMERGENCY PREPAREDNESS
The House continues to develop contingency plans to ensure         Approximately $21 million and $16 million were expended
the continuation of all House Operations in the event of an        in 2008 and 2007, respectively.
emergency evacuation.


 NOTE 18 - CONTINGENCIES
The House is not currently involved in any lawsuit where           prior year in the amount of $1million that is reflected in the
the outcome is probable and the amount can be estimated.           current year operating results.
During fiscal year 2008, the House settled a lawsuit from a




                                                                                                                            61
     This Page Intentionally Left Blank




62
Supplemental Financial Schedules




                             63
Supplemental Financial Schedules




                                   This Page Intentionally Left Blank




   64
Supplemental Financial Schedules




                                   Consolidating Statements




                                                       65
Supplemental Financial Schedules



                              U.S. House of Representatives
                       Consolidating Statement of Financial Position
                                 as of September 30, 2008


                                                            Members            Committees
        ASSETS
          Fund Balance with U.S. Treasury               $    24,334,971    $      8,609,861
          Cash                                                        -                   -
             Fund Balance with U.S. Treasury and Cash        24,334,971           8,609,861

          Accounts Receivable, Net                               99,649              18,353
          Interoffice Receivable                                      -                   -
          Advances and Prepayments                            2,565,738             587,699
          Inventory                                                   -                   -
          Property and Equipment, Net                           207,989           4,502,373

             Total Assets                               $   27,208,347     $     13,718,286

        LIABILITIES AND NET POSITION
          Accounts Payable                              $   11,204,261     $      1,686,032
          Interoffice Payable                                1,215,717              250,941
          Capital Lease Liabilities                                  -                    -
          Accrued Funded Payroll and Benefits                8,151,261              182,456
          Accrued Workers’ Compensation                      1,270,636              462,595
          Accrued Unfunded Annual Leave                      1,161,369              653,151
          Deferred Credits                                           -                    -
          Unfunded Workers’ Compensation
              Actuarial Liability                                     -                     -
          Other Liabilities                                           -                     -

             Total Liabilities                              23,003,244            3,235,175

          Unexpended Appropriations                           6,429,115           7,096,484
          Cumulative Results of Operations                   (2,224,012)          3,386,627

             Total Net Position                              4,205,103           10,483,111

             Total Liabilities and Net Position         $   27,208,347     $     13,718,286




   66
Supplemental Financial Schedules




                                 Officers and
          Leadership             Legislative
            Offices                Offices       Joint Functions       Eliminations           Combined

      $      6,060,590       $     126,832,635   $    3,473,535    $                  -   $   169,311,592
                     -                     739                -                       -               739
             6,060,590             126,833,374        3,473,535                       -       169,312,331

                2,410                  393,157                -                    -              513,569
                    -                1,651,239                -           (1,651,239)                   -
               77,399                  813,455          200,030                    -            4,244,321
                    -                1,247,985                -                    -            1,247,985
              133,545               51,983,845          416,116                    -           57,243,868

      $     6,273,944        $     182,923,055   $    4,089,681    $      (1,651,239)     $   232,562,074


      $       486,313        $      25,859,921   $     835,184     $               -      $    40,071,711
               53,182                  121,664           9,735            (1,651,239)                   -
                    -                6,957,008               -                     -            6,957,008
              170,813                  328,124           8,355                     -            8,841,009
               58,179                  292,733          24,473                     -            2,108,616
               47,406                4,263,178           6,680                     -            6,131,784
                    -                1,217,375               -                     -            1,217,375

                       -            22,392,436                -                    -           22,392,436
                       -               107,493                -                    -              107,493

              815,893               61,539,932         884,427            (1,651,239)          87,827,432

            5,430,091               79,981,585        2,700,857                    -          101,638,132
               27,960               41,401,538          504,397                    -           43,096,510

            5,458,051              121,383,123        3,205,254                    -          144,734,642

      $     6,273,944        $     182,923,055   $    4,089,681    $      (1,651,239)     $   232,562,074




                                                                                                         67
Supplemental Financial Schedules



                                 U.S. House of Representatives
                            Consolidating Statement of Operations
                            for the Year Ended September 30, 2008

                                                              Members            Committees
        REVENUE AND FINANCING SOURCES
         Revenue from Operations
            Sales of Goods                                $             -    $                -
            Sales of Services to Federal Entities                       -                     -
            Sales of Services to the Public                             -                     -
            Interoffice Sales                                           -                     -
            Other Revenue                                               -                     -
               Total Revenue from Operations                            -                     -

          Financing Sources
             Appropriations to Cover Expenses:
                Appropriations Received                       832,910,027         227,008,871
                Appropriations Yet To Be Received                 160,653             (35,804)
             Imputed Financing Source                          35,028,789          11,878,366
                Total Revenue and Financing Sources       $   868,099,469    $    238,851,433

        EXPENSES
            Personnel Compensation                        $   482,822,319    $    148,824,824
            Benefits                                          194,986,022          60,860,201
            Postage and Delivery                               34,605,987              15,003
            Repairs and Maintenance                            23,270,668           5,622,390
            Depreciation and Amortization                         140,594           1,796,344
            Rent, Communications, and Utilities                26,961,050              16,224
            Telecommunications                                 14,276,297           1,927,790
            Supplies and Materials                              8,668,290           1,658,139
            Travel and Transportation                          27,634,279          11,892,491
            Contract, Consulting, and Other Services           14,948,922           4,396,375
            Printing and Reproduction                          30,700,307              47,941
            Subscriptions and Publications                      8,923,617           1,474,297
            Cost of Goods Sold                                          -                   -
            Other Expenses                                         17,575             308,051
            Bad Debts                                             143,542              11,363
            Interest on Capital Leases                                  -                   -
                Total Expenses                            $   868,099,469    $    238,851,433

                Excess (Shortage) of Revenue and
                  Financing Sources over Total Expenses   $             -    $                -

        CHANGE IN NET POSITION
            Net Position, Beginning Balance               $      9,276,185   $     13,057,713
            Excess (Shortage) of Revenue and Financing
               Sources over Total Expenses                              -                   -
            Plus (Minus) Non-Operating Changes                (5,071,082)         (2,574,602)
             Net Position, Ending Balance                 $     4,205,103    $     10,483,111


   68
Supplemental Financial Schedules




                              Officers and
        Leadership            Legislative
          Offices               Offices        Joint Functions       Eliminations           Combined


    $                -    $      2,973,938     $            -    $               -      $      2,973,938
                     -           4,061,714                  -                    -             4,061,714
                     -             808,011            119,434                    -               927,445
                     -          21,517,640                  -          (21,517,640)                    -
                     -             991,411                  -                    -               991,411
                     -          30,352,714            119,434          (21,517,640)            8,954,508



          31,327,849           232,104,737         15,279,508                       -       1,338,630,992
            (11,268)             2,561,697              4,366                       -           2,679,644
           1,461,526             7,524,438            633,680                       -          56,526,799
    $     32,778,107      $    272,543,586     $   16,036,988    $     (21,517,640)     $   1,406,791,943


    $     18,846,112      $     94,345,422     $    7,873,392    $               -      $    752,712,069
           7,623,972            40,045,931          3,190,863                    -           306,706,989
              13,568               141,674              3,597                    -            34,779,829
           1,017,023            30,381,310            685,104                    -            60,976,495
              46,941            13,354,164            478,154                    -            15,816,197
             122,571               296,479                  -                    -            27,396,324
             611,279             8,322,080            125,078                    -            25,262,524
             775,201             4,567,825            599,431                    -            16,268,886
           2,673,445             1,254,394             88,124                    -            43,542,733
             564,564            48,183,895          2,582,908                    -            70,676,664
              87,426                61,489              3,681                    -            30,900,844
             368,037             1,669,256            286,890                    -            12,722,097
                   -            27,899,206                  -          (21,517,640)            6,381,566
              15,631             1,118,892                  -                    -             1,460,149
              12,337                58,435                332                    -               226,009
                   0               199,016                  -                    -               199,016
    $     32,778,107      $    271,899,468     $   15,917,554    $     (21,517,640)     $   1,406,028,391


    $                -    $        644,118     $      119,434    $                  -   $        763,552


    $      5,104,565      $    140,908,562     $    3,313,523    $                  -   $    171,660,548

                  -                 644,118           119,434                       -             763,552
            353,486             (20,169,557)        (227,703)                       -        (27,689,458)
    $      5,458,051      $    121,383,123     $    3,205,254    $                  -   $    144,734,642


                                                                                                        69
Supplemental Financial Schedules



                                  U.S. House of Representatives
                             Consolidating Statement of Cash Flows
                             for the Year Ended September 30, 2007


                                                                         Members              Committees
   CASH FLOWS FROM OPERATING ACTIVITIES
     Excess / (Deficiency) of Revenue and
        Financing Sources over Expenses                              $              -     $                -
     Adjustments affecting Cash Flow
        Expended and Unexpended Appropriations                            (730,422,295)         (174,860,482)
        (Increase)/Decrease in Accounts and Interoffice Receivable              12,894               (23,425)
        Increase/(Decrease) in Allowance for Doubtful Accounts                   3,538                 8,201
        (Increase)/Decrease in Advances and Prepayments                        519,765                54,855
        (Increase)/Decrease in Inventory                                             -                     -
        Increase/(Decrease) in Accounts and Interoffice Payable                687,192               227,276
        Increase/(Decrease) in Other Accrued Liabilities                       409,151                72,668
       (Gain)/Loss on Disposal of Assets                                        17,575               308,051
       Depreciation and Amortization                                           140,594             1,796,344

          Net Cash Provided / (Used) by Operating Activities              (728,631,586)         (172,416,512)

   CASH FLOWS FROM INVESTING ACTIVITIES
     Purchase of Property and Equipment                                       (267,314)             (825,940)

          Net Cash Provided / (Used) by Investing Activities                  (267,314)             (825,940)

   CASH FLOWS FROM FINANCING ACTIVITIES
     Appropriations                                                        691,339,000           163,511,000
     Funds Returned to the U.S. Treasury                                       (36,549)              (75,726)
     Appropriated Funds Allocated                                           34,231,521             7,292,620
     Principal Payment on Capital Lease Liabilities                                  -                     -

          Net Cash Provided / (Used) by Financing Activities               725,533,972           170,727,894

        Net Cash Provided/(Used) by Operating, Investing
          and Financing Activities                                          (3,364,928)           (2,514,558)

        Fund Balance with U.S. Treasury and Cash, Beginning                 27,699,899            11,124,419

        Fund Balance with U.S. Treasury and Cash, Ending             $      24,334,971    $        8,609,861




   70
Supplemental Financial Schedules




                            Officers and
     Leadership             Legislative
       Offices                Offices          Joint Functions         Eliminations           Combined



 $              -       $          644,118     $       119,434     $                  -   $          763,552

      (43,853,523)            (380,064,647)         (12,109,689)                    -          (1,341,310,636)
          105,153                  174,505                    -              (426,615)               (157,488)
           (6,634)                 220,814                   90                     -                 226,009
           49,845                  618,217              (71,824)                      -             1,170,858
                -                  437,952                    -                       -               437,952
          111,145                3,275,209             (989,115)              426,615               3,738,322
          148,134                5,977,152                8,843                       -             6,615,948
           15,631                  118,892                    -                       -               460,149
           46,941               13,354,164              478,154                       -            15,816,197

      (43,383,308)            (355,243,624)         (12,564,107)                      -        (1,312,239,137)


          (77,336)              (16,985,166)          (422,729)                       -           (18,578,485)

          (77,336)              (16,985,166)          (422,729)                       -           (18,578,485)


       20,880,286              420,104,714          12,003,000                        -         1,307,838,000
         (304,298)              (2,723,398)          (1,107,221)                      -            (4,247,192)
       23,605,884              (66,118,639)             988,614                       -                     -
                -                 (736,243)                   -                       -              (736,243)

       44,181,872              350,526,434          11,884,393                        -         1,302,854,565


          721,228              (21,702,356)          (1,102,443)                      -           (27,963,057)

        5,339,362              148,535,730           4,575,978                        -          197,275,388

 $      6,060,590       $      126,833,374     $      3,473,535    $                  -   $       169,312,331




                                                                                                           71
     This Page Intentionally Left Blank




72
